  Department of Health and Human Services

         OFFICE OF
    INSPECTOR GENEW




 EVALUATING HEAD START EXPANSION
THROUGH PERFORMANCE INDICATORS




           MAY 1993   OE.I-B91-(X)762
                                            ..
              EXECUTIVE                         SUMMARY

PURPOSE


This inspection used selected performance indicators to assess the impact of Head

Start expansion on grantees and delegates.


BACKGROUND


Head Start operates on the premise that children are best prepared for success in

school when they and their parents participate in a comprehensive program that

addresses their educational, economic, social, physical, and emotional needs. In

addition to providing children with classes and health services, Head Start addresses

the needs of the entire family.


Both Congress and the Administration are committed to expanding Head Start. Since

Fiscal Year (FY) 1990, the total funding for Head Start has increased more than

$1 billion, and the number of children served has increased by almost 300,000.


Within the Department of Health and Human Semites (HHS), the Administration for

Children and Families (ACF) is responsible for administering Head Start. The ACF,

the Assistant Secretary for Management and Budget (ASMB), and the Assistant

Secretary for Planning and Evaluation (ASPE) requested that the Office of Inspector

General (OIG) review the implementation and status of Head Start expansion because

they were concerned that rapid expansion might jeopardize the quality of services.

This report is one in a series prepared by the OIG on this subject.


From May through July 1992, we conducted either on-site visits or telephone

interviews with a random sample of 80 Head Start grantees and delegates using

structured discussion guides. In a companion report entitled “Head Start Expansion:

Grantee Experiences” (OEI-09-91-O0760), we reported the results of these interviews.

According to the grantees, expansion posed problems for them in such areas as child

enrollment, facility acquisition, staffing, transportation, and social services.

Nevertheless, grantees told us that they were still able to meet all of Head Start’s

performance standards. This is consistent with the data that grantees report to ACF

in their annual Program Information Reports (PIRs). Based on the following findings,

however, we question the accuracy of some of these self-reported data and

assessments.


In addition to the intemiews, we reviewed health, education, and social semice files for

more than 3100 children as well as other performance data which were maintained by

the 80 sampled grantees. We assessed grantee performance by applying 18 specific

performance indicators that we developed with input from ACF’S Head Start Bureau,

ASPE, ASMB, Head Start grantees and delegates, program experts, and researchers.

In most cases, the performance indicators mirror ACF’S performance standards. We

primarily used ACF’S policy guidance to grantees on the performance standards to



                                            i
assess grantees’ ability to provide services to children and families and to measure the
quality of sewices provided in general. The results of this assessment are contained in
this report.

FINDINGS

The original purpose of this inspection was to assess the impact of expansion on Head
Start grantee performance. We did not find any statistically significant difference in
grantee performance as a result of expansion. We did, however, find that the level of
grantee performance as measured by our indicators was considerably lower than the
level of performance reported by grantees and published by ACF. Because of
(1) inadequate grantee record keeping, (2) the lack of specificity in the Head Start
performance standards, and (3) the fact that many grantees disregard ACF policy
guidance, we are unable to determine if the program and performance data
weaknesses that we found reflect serious deficiencies in the quality of services
provided by Head Start. Our specific findings are:

l%e ACF’S l%ogram Information Report (PIR) data do not accurate~ reflect information
iia childrenk health recomk

During our review of grantees’ files, we found that grantees are not providing medical
and dental services and follow-up to the extent that they report in their PIRs.

Children may not be jWy immunized before they leave the Head Start program

Our review of health files and all other available information provided by grantees
revealed that only 43.5 percent of Head Start children were fully immunized as
defined by ACF guidelines at the end of the 1991-92 school year.

Gmntees fiequent~ do not identifi or addkxs fam”litx’ socidl sena”ceneeh

Grantees frequently did not administer family needs assessments (FNAs), did not
identi~ family needs or goals when conducting an FNA, rarely used Family Assistance
Plans, and did not help families meet all or most of their needs.

Gmntees’ jk    and recortk jiequendy are incomplete, inconszken~ and dificult to rew”ew

Some grantees have developed exemplary internal record keeping requirements, but
others prematurely disposed of files and maintained children’s files in a haphazard
manner.




                                            ii
RECOMMENDATIONS

T7w Secretary shouId convene a task foce to conduct a formal and thorough review of
the management of the Head S~atiprogram

The task force should analyze the respective roles and functions of the Head Start
Bureau, ACF regional offices, grantees, and delegates. It should review how the Head
Start program is currently organized and managed and how it can best be structured
to administer the current and anticipated expansions. The task force should examine
the planning, distribution of funds, grants management, oversight, technical assistance,
management information systems, and performance standards that are currently used
to manage the program.

The Secretary has initiated a comprehensive examination of Head Start with a
particular emphasis on quality and accountability. The Secretary’s initiative includes
(1) immediately identi~ng poorly performing grantees, designing corrective actions,
providing technical assistance, and ensuring that grantees that provide high quality
services receive program funds and (2) conducting an in-depth review of the program
with the help of an intellectually diverse expert study panel and using the results to
design the Head Start program of the future. This plan addresses our concerns and is
consistent with our recommendation.      We anticipate that the examination will consider
all of the issues that we have identified as well as the following recommendations:

l%e ACF should create, dkn”bute, and mandate specific record keeping and children’s file
maintenance ihstrucO”onsfor grantees

Standardized record keeping and file maintenance would assure easy access to
children’s files. Grantees could identify missing semices or needed follow-up more
readily, and on-site reviews could be completed more expeditiously.

% ACF shouki strengthen its monitoring of grantetx to better identifi and address
pmblkm areas

We believe that ACF should consider restructuring and condensing its on-site program
reviews so that more time and resources can be devoted to monitoring and providing
technical assistance to the most needy grantees. Furthermore, ACF should randomly
sample PIR data to assure its validity.

Ihe ACF should develop a modified FNA form that should be requtied of all Head Start
-~

The Model FNA should be less cumbersome and be more conducive to an open
dialogue with the family. The ACF should require grantees to use the revised FNA
throughout the school year to track and follow up on family needs.




                                            111

AGENCY COMMENTS

As discussed in the first recommendation, the Secretary has initiated a comprehensive
review of the management of the Head Start program.

We received written comments on the draft report from ACF, ASPE, and ASMB.
The ACF generally concurred with our recommendations but was concerned about the
presentation of some of the data and conclusions in our findings. They were
particularly concerned about the immunization and social setices findings. We found
their comments helpful. As a result, we have revised the immunization section and
presented additional data to explain and clari~ our finding. In addition, we have
provided a detailed response to all of ACF’S comments, including immunizations and
social semices, in appendix C. The ASPE and ASMB provided editorial and technical
comments and suggestions which have been incorporated in the final report. The
complete text of the ASPE and ASMB comments can be found in appendix D.




                                           iv
                      TABLE                   OF CONTENTS

EXECUTIVE         suMMARY

INTRODLKX’ION           ................................................. 1

OIG PERFORMANCE                 INDICATORS               .        ..0..                   .0                 .   ...0   �      .     .   .   . . . . . . .                         �      �        ...0.         .   .   6

FINDINGS         .....................                   .        .       .   .   .   .   .         ..****              �      *.*           .    ..0..0                           .000                    .00   �   .   7

    �
              Health services      ..........            �        *..**                   �         .0...0              ..0.                 .0            .0..,                   �      ..000.                 �   �   7

    �
              Immunizations      .**   . . . . ..*.      .        .       .   .   .   .   .         ..0...              �      ..*           �    ..**..                           .      .        ...*.         .   �   9

    �
              Social services    . . . . . . . . . . .   .        .       .   .   .   .   .*.*...                       .*..                 .    .        .       .   .   .   .   .0              .0..0         �       11

    �
              Grantee record keeping . . . .             .*.*..                           .*...*.                       .      .     .   .   .    .        .       .   .   .   .   �      *...*.                 .       14

RECOMMENDATIONS                 AND AGENCY COMMENTS                                                                     ....                 .    .        .       .   .   .   .   .      .        ...0.         .       16

APPENDICES

k       Performance   Indicator Methodology

B: How Head Start Program Performance Changed
   According to the OIG Performance Indicators

c       ACF Comments on the Draft Report and Detailed OIG Response

D: ASPE and ASMB Comments on the Draft Report




                                                                                                                                                                                          —
                          INTRODUCTION

PURPOSE

This inspection used selected performance indicators to assess the impact of Head
Start expansion on grantees and delegates.

BACKGROUND

Head Start operates on the premise that children are best prepared for success in
school when they and their parents participate in a comprehensive program that
addresses their educational, economic, social, physical, and emotional needs. In
addition to providing children with classes and health services, Head Start addresses
the needs of the entire family.

The Administration for Children and Families (ACF) is responsible for administering
Head Start. The ACF, the Assistant Secretary for Management and Budget (ASMB),
and the Assistant Secretary for Planning and Evaluation (ASPE) requested that the
office of Inspector Genera] (OIG) review the implementation and status of Head
Start expansion because they were concerned that rapid expansion might jeopardize
the quality of semices. This report is one in a series prepared by the OIG on this
subject.

71ie Head Start R-ogram

Head Start is a child development program funded primarily by the Federal
government. At the headquarters level, ACF’S Head Start Bureau provides leadership
and develops legislative and budgetary proposals for Head Start management and
operations. In each regional office, ACF’S Head Start and Youth Branch monitors all
Head Start programs, except Native American and migrant programs which are
monitored by branches within headquarters. According to ACF, Head Start served
approximately 622,000 children with Federal support of $2.2 billion in
Fiscal Year (FY) 1992.

Head Start programs are community-based, so agencies can respond to local needs
and coordinate with other community organizations. As a result, program options,
locations, and hours vary. The Federal government awards grants to a public or
private nonprofit agency (called a grantee) to operate a Head Start program. A
grantee may contract with one or more other public or private nonprofit organizations
in the community (called delegates) to run all or part of its Head Start program. For
the purposes of this report, we will refer to both grantees and delegates as “grantees”
unless specific differences need to be noted.

Head Start programs consist of four major components: health, education, social
services, and parent involvement. Specific performance standards, which have been


                                            1
published in the Code of Federal Regulations, require, among other things, that
grantees:

 �        develop children’s intellectual skills by encouraging them to solve problems,

 �        provide children medical and dental screenings and examinations,

 �        offer children nutritious meals and snacks, and

 �        identi~ families’ social semice needs and work with other community agencies
          to meet those needs.

All grantees must comply with the performance standards. In addition to the
performance standards, ACF has issued guidance material which elaborates on the
intent of the performance standards and provides methods and procedures for their
implementation.    The guidance material, however, is not mandated.

Head Start Expanst”on

Both the Administration and Congress are committed to expanding Head Start. The
Head Start Supplemental Authorization Act of 1989 and the Dire Emergency
Supplemental Appropriation of 1990 marked the beginning of expansion for all
grantees and provided funding for the first two expansions. Since FY 1990, the total
funding for Head Start has increased more than $1 billion, to an FY 1993 total of
$2.779 billion. The Human Senices Reauthorization Act of 1990 continues the Head
Start program through FY 1994 with the goal to serve all eligible children by 1994.
The following table summarizes the portions of the funding increases that have been
allocated for expanding enrollment:

                           HEAD START EXPANSIONS, 1990-1993

                   F-l      Announcement      Proposed Number       Funds to        Additional
                   Year         Date            of Additional   Expand Enrollment   Expansion
                                                   Children                          Funding

 Expansion I       1990   Februmy 6, 1990            37,500         $99,980,000      $51,335,000

 Expansion 11      1990   June 12, 1990              60,000        $165,315,000        None

 Expansion III     1991   undated                    51,000        $159,447,000     $240,363,000

 Expansion IV      1992   Februaty 19, 1992          38,500        $131,513,000     $118,487,000

 Expansion V       1993   December 17, 1992       100,000          $372,706,000     $201,779,600

 ‘IOTAL                                          287,000           $92&9’61,000     $611,964,600




                                                 2
     The additional expansion funding, identified in the chart on the preceding page, was

     set aside for, among other things, quality improvement, salary enhancement, cost-of-

     living increases, and training and technical assistance improvement. Grantees

     generally use quality improvement funding to increase salaries and benefits, strengthen

.	   the social semice, parent involvement, and/or health components, improve semices to
     disabled children, initiate or improve family literacy programs, and/or otherwise
     enhance services to children and families.

     To receive the allocated funds, grantees submitted expansion proposals. These
     proposals specified planned objectives, such as the number of additional children they
     would enroll and the staff they would require to serve these children. The Head Start
     Bureau advised grantees to prepare proposals that would result in high quality services
     that fully comply with the Head Start performance standards.

     The ACF monitors compliance with Head Start performance standards primarily by
     conducting on-site reviews. During site visits, review teams assess compliance with the
     performance standards using the On-Site Performance Review Instrument (OSPRI).
     The Head Start Act requires that ACF review each grantee or delegate at least once
     every 3 years to measure compliance with the Head Start performance standards
     [42 U.S.C. 9836]. The Head Start Improvement Act requires that ACF review each
     new grantee or delegate after its first year and conduct follow-up reviews of all
     grantees when appropriate.

     In addition to conducting on-site reviews, ACF requires each grantee to report
     performance data annually using the Program Information Report (PIR). The PIR
     contains data that ACF can use to assess individual grantee and overall program
     performance.

     Concerns about Ezpansion

     This report is one in a series prepared by the OIG concerning Head Start expansion.
     A companion report, “Head Start Expansion: Grantee Experiences”
     (OEI-09-91-O0760), describes the problems that Head Start grantees and ACF staff
     experienced during the 1990 and 1991 expansions as well as concerns about their
     ability to handle future expansions.

     METHODOLOGY

     We selected a random sample of 80 regional and Native American Head Start
     grantees and delegates. We excluded migrant grantees because of the unique nature
     of their programs, and we conducted a separate study, “Migrant Head Start Grantees:
     Perspectives and Challenges” (OEI-09-91-00761), to assess their experiences with
     expansion. From a universe of the 50 States plus the District of Columbia, Puerto
     Rico, and the Trust Territories (hereafter referred to as “localities”), we randomly
     selected 8 localities with probability proportional to size with replacement. f% a
     result, California was selected twice. The total amount of Federal funding received in


                                                3
~1991      determined thesize ofeachof the localities. The following table presents
the localities selected, their probability ofselection based upon their total budget, and
the number of grantees, original and adjusted, in each location:


I                             Total Budget,
                                                    I   Probability
                                                            of
                                                                      I   Number of Grantees
            State                                        Selection        Original       Adjusted
                              All Grantees
    California (One)
          $184,762,665              10.87%             133             95
    California (Two)
          $184,762,665              10.87%             133             95
    Florida
                    $57,466,594               3.38910            49             49
    Maine
                       $7,601,468               0.45%              13             13
    Michigan
                   $71,904,040               4.23%              80             80
    Puerto Rico
                $70,947,229               4.17%              34             28
    Texas
                      $95,413,705               5.61%              85             60
    Washington
                 $24,586,682               1.45%              29             26
    Sampled
                   $697,445,048              41.03%
    All States
               $1,700,448,467                                         I

Because not all grantees and delegates received expansion funds, not all were eligible
for selection at the second stage of sampling. At this stage, we selected grantees and
delegates using simple random sampling until we obtained 10 grantees or delegates
within each locality who received expansion funds in FYs 1990 or 1991.

The adjusted number of grantees in the above table represents the estimated number
of grantees and delegates that received expansion funds based upon our sampling
results. Projections used in this report are based upon this adjusted number of
grantees.

From May through July 1992, we conducted either on-site visits or telephone
interviews with each grantee and delegate using structured discussion guides and
reviewed children’s files and other performance data. For the children’s file review,
we selected a random sample of 20 children enrolled during the 1988-89 school year
and 20 children enrolled during the 1991-92 school year for each program. We
reviewed health, education, and social sewice files for more than 3100 children as well
as other performance data which were maintained by the 80 sampled grantees.

P~onnance         Indicaton

we assessed grantees’ experiences with expansion based on specific performance
indicators. The Head Start Bureau developed the initial list of indicators. We
modified and expanded the list with input from ASPE, ASMB, Head Start grantees
and delegates, program experts, and researchers. In most cases, the performance
indicators mirror ACF’S performance standards. We primarily used ACF’S policy
guidance to grantees on the performance standards to assess grantees’ ability to



                                               4

provide sexvices to children and families and to measure the quality of semices
provided in general. See page 6 for a list of the indicators.

At the completion of the fieldwork, we weighted all data to project to the universe of
Head Start grantees and delegates that received expansion funds. We determined
statistical significance by assessing overlapping confidence internals. After we
completed our analysis, we conducted follow-up interviews with several grantees to see
if we could ascertain the reasons for the discrepancies between our data and theirs (as
reported in the PIRs).

Appendix A contains a description of how we collected and reviewed grantee
management and performance data. Appendix B compares grantee performance          in
1988-89 to 1991-92 using the OIG performance indicators.

We conducted this inspection in accordance with the QuaZity Sfandard for Impectiorw
issued by the President’s Council on Integrity and Efficiency.




                                        -5
   OIG PERFORMANCE                                             INDICATORS

.In@ator   ~                    Description                               Data Source
,.
    1          Percent of chil(irenmedicallyscreened             Children’shealth file review
               percent of children receivingthe needed medical
    2                                                            Children’shealth file review
               treatment
    3          Percent of children receivingdental exams         Chiltlren’shealth file review
               Percent of children receivingthe neededdental     Children’shealth file review
    4
               treatment
    5          Percent of children fullyimmunized                Children’shealth file review
    6          Programprovidesnutritious meals and snacks        Grantee menu analysis
           percent of children for whomthe teacher has           Children’seducationfile review,
    7      entered in the child’sfolderobservational             teacher/educationcomponent
           commentsat least once a month                         files
                                                                 Enrollment data, attendance
    8      Averageclasssize
                                                                 record sample
           Percent of familiesfor whoma familyneetls             Children’ssocialservicesfile
    9
           assessmenthas been completed                          review
           Percent of families with identified needs for         Children’s social services file
    10     whom the Head Start program has attempted to          review, social services
           meet these needs                                      component log and file review
           Percent of parents volunteering at least 50 hours     Grantee interviews, volunteer
    11
           per year                                              and in-kind file review
                                                                 Enrollment data, attendance
    12     Percent of full enrollmen t
                                                                 data review
                                                                 Grantee interviews, attendance
    13     Average vacancy time
                                                                 data review
    14     Program is not at fiscal or program high risk         ACF regional office data
           Child-to-staff (teaching, sacial service, health,     Program-provided staff tally,
    15
           parent involvement, total ) ratio                     enrollment data
           Number of volunteer trai,ningsand parent              Grantee intewiews, volunteer,
    16
           workshops                                             training, and in-kind file review
                                                                 Children’s social semices file
    17     Average number of conta :ts with each parent          review, social se~ices
                                                                 component log and file review
    18     Average daily attendance                              Attendance data review




                                                6
                                  FINDINGS

The original purpose of this inspection was to assess the impact of expansion on Head
Start grantee performance. Using the 18 specific performance indicators listed on the
previous page, we reviewed records for pre- and post-expansion school years. We
found no statistically significant differences in these indicators before and after the first
three expansions. Appendix B contains tables comparing grantees’ performance in the
1988-89 and 1991-92 school years.

Although grantee performance was relatively stable in both school years, we found
that the level of performance as measured by the OIG performance indicators was
considerably lower than that reported in ACF databases and published reports.
Because of (1) inadequate grantee record keeping, (2) the lack of specificity in the
Head Start performance standards, and (3) the fact that many grantees disregard ACF
policy guidance, we are unable to determine if the program and performance data
weaknesses that we found reflect serious deficiencies in the quality of services
provided by Head Start. Since the level of performance in both school years was
lower than the performance indicated in ACF’S databases, we focused our analysis on
these discrepancies. We present the results in this report.

This report is based primarily on the data related to the OIG performance indicators.
A companion report, “Head Start Expansion: Grantee Experiences,” describes
problems that grantees reported enrolling children, obtaining facilities, hiring qualified
staff, providing transportation, providing social se~ices, and planning for past and
future expansions. Despite these problems, grantees indicated that they were able to
meet ACF’S performance standards during expansion. This is consistent with the data
reported in their PIRs. Our data, however, question the accuracy of some of these
self-reported data and assessments.

THE ACF’S PIR DATA DO NOT ACCURATELY                     REFLECT     INFORMATION         IN
CHILDREN’S      HEALTH      RECORDS

Grantees are not completing the minimum health requirements to the extent reported
in ACF’S “Project Head Start Statistical Fact Sheet” from January 1992. The
Statistical Fact Sheet reports aggregate data submitted by grantees in their PIRs. The
PIR data are self-reported. The ACF does not veri~ or confirm the accuracy of PIR
data. The following table illustrates the contrast between ACF’S statistics and ours:




                                             7
                ACCORDING TO THE OIG PERFORMANCE INDICATORS,
                          PIR DATA ARE INACCURATE

                       ACFS Statistical Fact
    Indicator           Sheet, Janua~ 1992               OIG’S Review of Children’s Head Start
                      (1990-91 Program Year)             Health Files for 1991-92 Program Year

Percent of           “97percent of children       91.7 percent of children received a medical screen,
children             enrolled 90 days or more     but only 53.8 percent received all required health
receiving medical    completed medical            screen assessments.* Overall, 70.2 percent of the
screens              screening including al! of   children received a medical screen within 90 days
                     the appropn”ate tests. u     of enrollment, 11.4 percent received one after
                                                  90 days, and 10.1 percent received one during the
                                                  previous year. The Head Start performance
                                                  standards simply require grantees to ensure that
                                                  children receive health screens. The ACFS
                                                  guidance to grantees urges that the screenings be
                                                  completed within 90 days of enrollment. The
                                                  guidance also informs grantees that children who
                                                  have received screens in the past 12 months do not
                                                  need to be reevaluated.

Percent of           “97percent of those          Of the children requiring follow-up medical
children with        tientified as needing        treatment, 76.2 percent had all of their medical
medical needs        [medical] treatment          needs met and 5.5 percent had only some of their
who received the     received treatment. ”        needs met. Approximately 18.2 percent received
needed treatment                                  no follow-up treatment.

Percent of           “94.5percent of the          84.7 percent of children received a dental screen.
children             chi~dren enrol[ed 90 days    While 67.6 percent of children received a dental
receiving dental     or more completed dental     screen 90 days before or after enrollment, an
screens              exanukations. n              additional 17.1 percent received the screen after
                                                  90 days. In most cases, we found no
                                                  documentation explaining why a child did not
                                                  receive a dental screen. The performance
                                                  standards require that each child receive a dental
                                                  screen. The ACF’Sguidance to grantees states that
                                                  the screen should be performed within 90 days of
                                                  enrollment.

Percent of          “94.5percent of those         Of the children requiring follow-up dental
children with       needing dental treatment      treatment, 66.6 percent had aI1of their dental
dental needs who    received treatment. ”         needs met and 7.4 percent had only some needs
received the                                      met. Approximately 26 percent received no follow-
needed treatment                                  up treatment.

   * According to the Head Start guidelines, the required eiements include growth, speech, and
     immunization assessments and special needs identification annual~ and vkion testing heatig
     testing and hemoglobin or hematocrit determination evety 2 years. Because of the different
     methodr that grantees use to identifi special needs and lack of documentation about whether a
     child was in his second year in the program, we determined that a child received ‘alI appropn”ate
     tests” if he received the growth, speech, and immunuation assessments.




                                                  8
CHILDREN MAY NOT BE FULLY IMMUNIZED                                 BEFORE THEY LEAVE THE

HEAD START PROGRAM


The Head Start performance standards require that grantees assess each child’s

immunization status and assure that each child receives all recommended

immunizations, as appropriate. To evaluate grantee compliance with this standard, we

used ACF’S published guidance to grantees which was developed by the Centers for

Disease Control and complies with the recommendations of the American Academy of

Pediatrics. Our review of health files and all other available information provided by

grantees revealed that only 43.5 percent of Head Start children were fully immunized

at the end of the 1991-92 school year, according to the following age-specific

guidelines:

  \,..,
   :.
   :...          ACF’S IMMUNIZATION                 GUIDANCE TO GRANTEES

   ~~lhe requtied immunizations     include DPT (diphtheria, pertussis, tetanus), polio, MUR (measles,
   ‘ mumps,rubella), and HIB      (haemophilus injluenzae type b). The minimum number of doses by



                                                             4-year-olds:	                  5* DPT
                                                                                            4* POL1O
                                                                                            1 MMR
                                                                                            1 HIB

                                                            *~ a child h not immunized as an infaru and
                                                            tvceives the last dose afkr /t& 4th birthday, he
                                                            child tnay receive one less dose and be considered
                                                            Jidly immunized




Some children required several immunizations to be fully immunized. The following
chart shows how many immunizations Head Start children required at the end of the
1991-92 school year:

              HOW MANY IMMUNIZATIONS  DID CHILDREN                                      NEED
                       TO BE FULLY IMMUNIZED?


                      Numberof NeededImmunizations            Percentof Children

                                         o                              43.5

                                         1                              19.8

                                         2                             29.5

                                   3   or More                           7.2




                                                                                                                 —.
                                                     9
Obtaining the serial immunizations (DPT and polio) posed the most problems for
grantees. Grantees had not provided ~ DPT immunizations during the
1991-92 school year for 61 percent of the 378,000 children who were not fully
immunized for DPT. In addition, grantees had not provided any polio immunizations
during the school year to almost 66 percent of the 244,000 children who were not fully
immunized for polio.

In general, children had received the required MMR and HIB immunizations, which
they are supposed to receive before entering Head Start. Approximately 97 percent
of the children had received the required MMR immunization and 91 percent had
received the HIB immunization. The table below illustrates how many DPT, polio,
MMR, and HIB immunizations children required to be fully immunized at the end of
the 1991-1992 school year:

        HOW MANY OF EACH IMMUNIZATION DID CHILDREN                              NEED
                    TO BE FULLY IMMUNIZED?

                                        Numberof Nccdcd
              ~   of Immunization        Immunizations        Pcrccntageof Chikircn

                                              o                       47.6

                                              1                       47.9

                                              2                        3.3
                    DPT
                                              3                        0.9
                                              4                        0.3
                                              5                        0.0

                                              o                       66.3
                                              1                       32.4
                   POLIO
                                              2                        1.0
                                              3                        0.3

                                    1
                                              4
                                                          ,
                                                                       0.0
         II                         I                     I
                                              o                       97.4
                   MMR
                                              1                        2.6

                                              0                       91.0
                    HIB
                                              1                        9.0

In contrast to our finding that 43.5 percent of Head Start children are fully
immunized, ACF’S PIR data indicate that 88 percent of children are fully immunized,
and an additional 8 percent, although not fully immunized, are up-to-date in their
immunizations. The major reason for this discrepancy is conflicting definitions of what
constitutes complete immunization for 4-year-olds. The ACF’S guidance to grantees,


                                                  10
which we used to measure full immunization, contlicts with the definition that grantees
use to report complete immunization in the PIR. The PIR instructions allow grantees
to consider 4-year-olds fully immunized if they have received 4 DPT and 3 polio
immunizations. This is one less of each immunization than recommended by the
Centers for Disease Control, the American Academy of Pediatrics, and ACF’S own
published guidance. If we apply the PIR instruction to our data, we find that
84 percent of children are fully immunized. This corresponds much more closely to
ACF’S published figure of 88 percent.

Several other factors, which were validated in our follow-up conversations with
grantees, may contribute to the low immunization rates that we found:

  .    Some grantees are ignoring ACF’S guidance and are applying less-stringent
       State, local, or other immunization standards to Head Start children;

  �    Some grantees do not keep children’s health files up-to-date;

  .    A few grantees are having difficulty finding providers who are willing to provide
       immunizations throughout the school year; and

  �    Not all parents, who have been referred to providers for immunizations,
       schedule or keep appointments.

G&WVTEES FREQUENTLY              DO NOT IDENTIFY OR ADDRESS FAMILIES’
SOCIAL SERVICE NEEDS

During both the 1988-89 and 1991-92 school years, grantees frequently did not
administer family needs assessments (FNAs), did not identi~ family needs or goals
when conducting an FNA, rarely used Family Assistance Plans, and did not help
families meet all or most of their needs.

Gmntea ofien did not conduct FNh or iiient~y familj neek and goak

Families who participate in Head Start are low-income and often must struggle to
meet their basic needs. The ACF’S guidance to grantees states that:

       In order to accomplish the comprehensive objectives of the Social
       Services component, the Head Start program should use some form of
       FNA with every family having a child enrolled in the program .... The
       FNA will identify the interests, desires, goals, needs, and strengths of the
       family, and will help the Social Services staff determine how Head Start
       can best work with the family to maximize and maintain its strengths,
       while strengthening areas of need and/or concern.

Despite this, our file review revealed that grantees frequently did not complete family
needs assessments. In other cases, grantees (1) conducted FNAs but did not identi~


                                            11
any family needs, (2) only partially completed FNAs, (3) used scaled-down forms to
accelerate the needs assessment process, or (4) substituted intake or application forms
for a formal FNA.

Approximately 140,000--or 26.3 percent--families participating in Head Start nationally
did not receive an FNA. This represents an improvement over 1988-89 when more
than one in three families received no FNA.

Grantees that use the Model FNA developed by the Head Start Bureau were more
likely to conduct a needs assessment than grantees that developed their own form.
Fewer than 40 percent of grantees use the Model FN~ however. Grantees that use
the Model FNA completed it for 87.7 percent of the families they served during the
1991-92 school year. In comparison, grantees that do not use the Model FNA
completed a needs assessment for only 63.5 percent of their families. The chart on
page 13 describes the key components of the Model FNA.

Grantees that do not use the Model FNA believe that it is too cumbersome, requires
too much staff time to administer, and is not conducive to an open dialogue with the
family. Five percent of programs claim that they have never received or seen the
Model FNA.

Even when grantees administered an FNA, they frequently did not identi~ family
needs or goals. In addition to the approximately 140,000 families who received no
FN~ an additional 70,000 families who received an FNA in 1991-92 had no needs or
goals identified. This represents approximately 20 percent of all families who received
FNAs during the 1991-92 school year. This percentage is virtually the same as in
1988-89.

 Grantees rarely utiltied comprehensive Family Assktance Plans as a blueprint to meet
fami& neeak and goaik

Although ACF does not require grantees to use Family Assistance Plans (FAPs), the
FAP is an important part of the needs assessment process. It outlines and describes
the specific measures that Head Start staff and family members will take to meet the
family’s needs. Head Start grantees developed comprehensive FAPs for only one-third
of the families who received a needs assessment and had needs identified.

Even though the FAP is part of the Model FNA, grantees that administer the Model
FNA were only slightly more likely to complete full FAPs (35.9 percent) than grantees
that use their own needs assessment (29.5 percent).

Head Stati attempted to meet all or most familj neeh fork      than half.- of the familitx
with identified neeh

By reviewing children’s files and social service files and logs, we assessed efforts to
meet family needs identified in the FNAs. Grantees attempted to meet all or most


                                            12
              WHAT ELEMEIW3 DOES A COMPREHENSIVE FAMILY NEEDS

                            ASSESSMENT CONTAIN?

                          A LOOK AT THE MODEL FNA


  : The Model FNA includes several discrete forms designed to obtain a full Picture of a
  : familv’ssocial service needs and to develop a stratew to meet these needs. The Model
    FNA contains:

       U51?	 Intake/Family Profile: This includes information about the family’s composition,
             health, income, education, employment, social semices historv, and resources.

  ,::’=       Family Needs Form: This form prompts social sexvice staff to describe anv needs
 .:..:.:::
     .:,.,,
       ,,
     ,...     for financial assistance, employment, education or training, housinq
 .:.,.,
 .,..         transportation, health and nutrition, mental health, family inter-relationships, and
:,,.
 :.
 ,.           parenting. The form also has a space for staff to list any Head Start classes that
              might help the familv meet some of these needs.
,.:....:,

   ““I@?      Family Goals Sheet: This sheet lists family needs and goals and sets target dates
              for the family to meet them. The interviewer probes the family to identifj the
              strengths it Possesses to meet these goals and identities communitv resources they
              mav need to achieve the goal.
 :,,;,. ,.
   .,,.
 ..,,.
  ,,.
,,.
:,:;’;,.@     Family &istance Plan: The intemiewer uses this form to work with the family
              on the s~ecific actions that will be necessarv to meet family needs, who will take
              these actions, and when.

       R3F    Family Contact Notes: Social semice staff may use this form throughout the year
              to document contacts with family members and any referrals made on behalf of
              the familv.
....
(Jla? Family Goals Attainment Checklist: Social services staff use this checklist

..,, ,.

‘..,          throughout the Vear to track a family’sprogress in achieving its ~oafs.

::

 .,,.,



needs for approximately 46.8 percent of families with identified needs during the

1991-92 school year. Overall, this represents 28.0 percent of all families who

participated in Head Start.





                                                   13

The following chart illustrates Head Start’s attempts to meet identified needs:



      Grantees Had Difficulty Meeting Families' Needs During the 1991-92 School Year


                                                             Families with
  Percent of families for whom Head Start:                     identified       All families
                                                                 needs
  attempted to meet all or most family needs                      46.8              28.0
  attempted to meet. some family needs                            22.7              13.6
  attempted to meet few or none of family needs                   26.9              16.1
  identified family needs, but deemed no action necessary          3.7               2.2
  conducted an FNA but did not klenti~ family needs           ---------------       13.9
  did not conduct an FNA                                      ---------------       26.3

Despite these findings, three-quarters of all Head Start directors believe that their
social sexvices components have improved or have not changed because of expansion.
Furthermore, based on the results of ACF on-site reviews, less than 13 percent of the
grantee directors indicated that they are not able to meet the performance standards
for social services.

Nationwide, the Head Start child-to-social-service-staff ratio increased, in contrast to
the education, health, and parent involvement components, where the ratios
decreased. The number of children per social service staff rose from 91.2 in
1988-89 to 94.5 in 1991-92. This is well above the 35-to-1 ratio recommended by the
National Head Start Social Services Task Force in 1988.

The OIG companion report, “Head Start Expansion: Grantee Experiences,” describes
grantees’ difficulties serving children and families with severe problems. Grantees are
concerned about providing quality setvices with the diminishing availability of
community semices and decreasing numbers of professionals w-ho are willing to donate
services.

GRANTEES’  FILES AND RECORDS FREQUENTLY                     ARE INCOMPLE~
INCONSISTENT, AND DIFFICULT TO REVIEW

Some grantees have developed exemplary internal record keeping requirements and
procedures, while others need technical assistance and guidance in this area. The
ACF’S Grants Management Branch has issued instructions that require grantees to
maintain children’s records for 3 years, but has issued no other record keeping
guidelines. As a result, it frequently was difficult to review and verify performance
indicator data. In summary:



                                                  14
.	   Several grantees hadalready disposed of 1988-89 files despite being informed
     that they should keep these records for at least 3 years.

.	   Certain record keeping was haphazard. Grantees generally did not document
     important events--such as family contacts and semices provided to the family--in
     a manner that is conducive to follow-up. Grantees commonly used logs to
     document contacts rather than inserting specific notes and documentation into
     the child’s file.

�	   It was impossible to track individual parents’ participation in the program
     during the school year. The only source of this information was cumbersome
     in-kind report documentation.

.	   Education, health, social services, and special needs files remained separated,
     even after the school year ended. A grantee might have three or four different
     files for one child, all in different locations.




                                        15

                   RECOMMENDATIONS

THE SECRETARY SHOULD CONVENE A TASK FORCE TO CONDU~ A
FORMAL AND THOROUGH REVIEW OF THE MANAGEMENT OF THE
HEAD START PROGRAM

Because of (1) inadequate grantee record keeping, (2) the lack of specificity in the
Head Start performance standards, and (3) the fact that many grantees disregard ACF
policy guidance, we are unable to determine if the program and performance data
weaknesses that we found reflect serious deficiencies in the quality of services
provided by Head Start. This, when considered with the organizational and
programmatic concerns expressed by grantees in the companion report entitled “Head
Start Expansion: Grantee Experiences” and anticipated major future expansions, leads
us to recommend that the Secretary convene a task force to conduct a formal and
thorough review of the management of the Head Start program. The task force
should analyze the respective roles and functions of the Head Start Bureau, ACF
regional offices, grantees, and delegates. It should review how the Head Start
program is currently organized and managed and how it can best be structured to
administer the current and anticipated expansions. The task force should examine the
planning, distribution of funds, grants management, oversight, technical assistance,
management information systems, and performance standards that are currently used
to manage the program.

The Secretary has initiated a comprehensive examination of Head Start with a
particular emphasis on quality and accountability. The Secretary’s initiative includes
(1) immediately identifying poorly performing grantees, designing corrective actions,
providing technical assistance, and ensuring that grantees that provide high quality
services receive program funds and (2) conducting an in-depth review of the program
with the help of an intellectually diverse expert study panel and using the results to
design the Head Start program of the future. This plan addresses our concerns and is
consistent with our recommendation.      We anticipate that the examination will consider
all of the issues that we have identified as well as the following recommendations:

THE ACF SHOULD CREA~   DISTRIBU~  AND MANDATE SPECIFIC
RECORD KEEPING AND CHILDREN’S FILE MAINTENANCE INSTRUCIIONS
FOR GRANTEES

Standardized record keeping and file maintenance would assure easy access to
children’s files. Grantees could identifj missing semices or needed follow-up more
readily, and on-site reviews could be completed more expeditiously.




                                           16
THE ACF SHOULD STRENGTHEN ITS MONITORING OF GRANTEES TO
BETTER IDENTIFY AND ADDRESS PROBLEM AREAS

Although Head Start directors and PIR data indicate that grantees are in compliance
With Ifit prti”mmmce stzmbwti, we identified on-going deficiencies in t’ne ‘nea’tin and
social services components. Although we did not conduct a review of ACF’S on-site
monitoring process, we believe that ACF should consider restructuring and condensing
its on-site program reviews so that more time and resources can be devoted to
monitoring and providing technical assistance to the most needy grantees. By
conducting a condensed OSPRI, ACF could reduce the time normally required to
complete an on-site review. The time and resources saved could be used to conduct
follow-up activities and to provide technical assistance to grantees that are having
difficulty providing quality services. Furthermore, ACF should randomly sample PIR
data to assure its validity.

THE ACF SHOULD DEVELOP A MODIFIED FNA FORM THAT SHOULD BE
REQUIRED OF ALL HEAD START GRANTEES

Fewer than 40 percent of grantees use the Model FNA. Grantees do not use the
Model FNA because it is cumbersome, requires too much staff time to administer, and
is not conducive to an open dialogue with the family. The Model FNA should be
revised to reflect these comments. The ACF should require grantees to use the
revised FNA throughout the school year to track and follow up on family needs.

AGENCY COMMEN’IX

AS discussed in the first recommendation, the Secretary has initiated a comprehensive
review of the management of the Head Start program.

We received written comments on the draft report from ACF, ASPE, and ASMB.
The ACF generally concurred with our recommendations but was concerned about the
presentation of some of the data and conclusions in our findings. They were
particularly concerned about the immunization and social services findings. We found
their comments helpful. As a result, we have revised the immunization section and
presented additional data to explain and clarify our finding. In addition, we have
provided a detailed response to all of ACF’S comments, including immunizations and
social services, in appendix C. The ASPE and ASMB provided editorial and technical
comments and suggestions which have been incorporated in the final report. The
complete text of the ASPE and ASMB comments can be found in appendix D.
                            APPENDIX                  A


                       PERFORMANCE        DATA COLLECTED

To collect information on some of the performance indicators, we reviewed files for
children who had participated in the program during the 1988-89 (pre-expansion) and
1991-92 (post-expansion) school years. We requested that each of the 80 sampled
grantees send us rosters of children enrolled during February 1989 and February
1992, in all program options so that we could select a random sample of 20 students
per grantee for each school year. To replace children who were in the program less
than 120 days or whose files were incomplete, we actually selected 30 children for
each school year.

We reviewed each child’s medical, social services, education, special needs, and other
files. overall, we reviewed files for 1,598 children for the 1991-92 school year and
1,573 children for the 1988-89 school year.

We also conducted a review of attendance records to evaluate average daily
attendance, actual enrollment, and percent of full enrollment. To accomplish this, we
requested that grantees send us a list of their classes. We produced a set of tables
that allowed the reviewer to randomly select 20 class-days for each year. For each
selected class-day, we recorded the funded enrollment, actual enrollment, and the
number of children who attended class that day.

To collect information on the other performance indicators, we interviewed directors
of all 80 grantees and obtained management and performance data. These data
included menus for February 1989 and February 1992, staffing tallies, budget and
expansion figures, parent training and workshop documentation, and Federal matching
(in-kind) records.

At the completion of the fieldwork, we weighted all data to project to the universe of
Head Start grantees and delegates that expanded. We determined statistical
significance by assessing overlapping confidence internals.
                              APPENDIX                          B


          HOW HEAD START PROGRAM PERFORMANCE CHANGED
           ACCORDING TO THE OIG PERFORMANCE INDICATORS


INDICATOR      #1:    Percent of children medically screened

SOURCE:       Children’s health file review




 ‘Percent of ~ children who:                          1988-89        1991-92   Difference


 received a medical screen within 90 days of           74.4           70.2         -4.2
 enrollment

 received a medical screen after 90 days of             8.6           11.4        +2.8
 enrollment

 did not a receive a medical screen during             17.0           1s.4        +1.4
 the current school year




 ‘percent of fl children who did not                  1988-89        1991-92   Difference

 receive  a medical screen because:

 .,:.,

    ...


 they received one during previous                      8.4           10.1        +1.7
 12 months

 parent refused treatment                               1.8            0.7         -1.1

 screening was not required because child               0.1            0.6        +0.5
 was currently receiving treatment

 No Documentation                                       5.7            5.2         -0.5

 Other                                                  1.1            1.8        +0.7




                                               B-1

 Out of children who received a medical         1988-89   1991-92     Difference
 screen, percent who received each of
 following assessments as part of the
screen

charted height/weight assessment                 82.0       76.4          -5.6

immunization assessment                          97.6       98.4         +0.8

vision screening                                 92.1       93.2         +1.1

hearing screening                                91.0       93.3         +2.3

hemoglobin/hematocrit screen                     86.9       88.5         +1.6

tuberculosis test                                57.6       60.3         +2.7

speech assessment                                77.9       84.5         +6.6

special needs identification                     46.2       48.5         +2.3



:.
‘percent of ~ children who received a           1988-89   1991-92     Difference
~ctimplete medical screen:

Annual requirements**                            55.0       53.8          -1.2

Annual and biennial requirements**               43.8       45.7         +1.9

  ““According to the Head Start Performance Standardsy the required elements include
    (a) growth, speech, and immunization assessments and special needs identification
    annually and (b) vkion testing, hearing testing, and hemoglobin or hematocrit
    determination eveiy 2 years. Because of the different methods that grantees use to
    identifi special neeak, we omitted this from our M of required elements.




                                          B-2
INDICATOR      #2:    Percent of children receiving the needed medical treatment

SOURCE:        Children’s health file review



.:&
      ent of need for medical follow-up:           1988-89       1991-92       Difference

 Out of children who received a medical
 screen, percent who had medical needs              24.4          24.2             -0.2
 identified



.:
‘.out of children who had medical                  1988-89       1991-92       Difference
 “needs, percent for whom:

                                                             i
 grantees met all medical needs                I    74.9     I    76.2     I     +1.3

 grantees met some medical needs                     9.4           5.5            -3.9

 grantees met no medical needs                      15.7          18.2           +2.5




                                           B-3
INDICATOR      #3:    Percent of children receiving dental exams

SOURCE:       Children’s health file review




 Percent of ~ children who:                          1988-89   1991-92   Difference
 ,.

 received a dental screen within 90 days of           63.6      67.6       +4.0
 enrollment

 received a dental screen after 90 days of            17.6      17.1        -0.5
 enrollment

 did not receive a dental screen                      18.8      15.3        -3.5



 ,,.
“Ptxcent of&l children who did not                   1988-89   1991-92   Difference
~receive
  .      a dental screen because:
. .

 parent refused treatment                              1.4       0.5        -0.9

 parent missed appointments                            1.0       0.7        -0.3

 appointment scheduled, not yet completed              0.2       0.6       +0.4

 dental needs were checked only during                 0.8       0.3        -0.5
 medical screen

 provider was unable to complete screen                1.6       0.3        -1.3

 No Documentation, but child received                  3.7       3.7         0.0
 screen during previous year in Head Start

 No Documentation                                     10.1       9.3        -0.8




                                              B-4

INDICATOR      #4:   Percent of children receiving the needed dental treatment

SOURCE:       Children’s health file review
                                          .




 Ektent
 :,     of need for dental follow-up:                1988-89       1991-92       Difference
 ..:,

 Out of children who received a dental                42.9          37.6             -5.3
 screen, percent who had dental needs



 ,.

Out of children who had dental needs,                1988-89       1991-92       Difference

‘:percent for whom:

::

,:
:,,

 grantees met all dental needs                        83.3          66.6           -16.7


 grantees met some dental needs               I        5.3     I     7.4     I      +2.1

 grantees met no dental needs
                                              I       11.3
                                                               I    26.0
                                                                             I     + 14.7




INDICATOR      #5:   Percent of children fully immunized

SOURCE:       Children’s health file review




 Ektent
 :..    of immunizations:                            1988-89       1991-92       Difference
    .,
  ..,.

 Percent of ~ children fully immunized        I       39.9     I    43.5     I     +3.6




                                              B-5

INDICATOR       #6:      Grantee provides nutritious meals and snacks

SOURCE:        Grantee menu analysis




“Percent of grantees that meet Head                                         Difference
                                                   19s8-89    1991-92
,,Start nutrition requirements, by
[“program option:
....

 Overall, all grantees                              89.1        88.8           -0.3

 Part-day grantees                                 100.0       100.0            0.0

 Full-day grantees                                  60.9        59.8           -1.1




,Percent of grantees that meet Head                1988-89    1991-92       Difference
$tart nutrition requirements, by meal:
;,.:.                                                                   .
,,:.:
 ,,
 Breakfast, all grantees                           100.0       100.0            0.0

 Snack, all grantees                                72.9        79.2           +6.3

 Lunch, all grantees                               100.0       100.0            0.0




                                             B-6                                         —
INDICATOR        #7:    Percent of children for whom the teacher has entered in the
                        child’s folder observational comments at least once a month
                        (center-based only)

SOURCE:         Children’s education file review, teacher/education       component files


,,..,.:
::...,
  .
:::.
~went      of observational   comments:                 1988-89   1991-92      Difference
:,.....
.::,,.,,
  Percent of all center-based children for

  whom teacher made observational                        28.3      34.3           +6.0

  comments in child’s file at least once a

  month





INDICATOR        #8:   Average class size

SOURCE:         Enrollment    data, attendance    record sample


:,:.
. ...:
‘Average
 ,..,
,,.:.
   .,..: class size:                                    1988-89   1991-92      Difference
,.:,:,
.. .

  Funded enrollment (number of children)                 17.9      17.8            -0.1
  per class

  Actual enrollment (number of children)                 17.5      17.6           +0.1
  per class




                                                 B-7

INDICATOR      #9:	   Percent of families for whom a family needs assessment has been
                      completed

SOURCE:       Children’s social service file


:,
 Percent of alI families for whom                     1988-89   1991-92   Difference
!grantees: —


 conducted a Family Needs Assessment                   62.7      73.7       +11.0

 completed a family profile                            92.1      89.5         -2.6

 identified family needs and/or goals                  51.3      61.9       +10.6



:.
Percent of all families for whom                      1988-89   1991-92   Difference

‘gtiantees: —

:...

:,

 developed a full Family Assistance Plan               12.6      20.7        +8.1

 developed a partial Family Asistance Plan             14.4      18.3        +3.9

 developed no Family Assistance Plan                   24.1      23.0         -1.1

 identified no needs, therefore did not                48.9      38.0       -10.9
 develop a Family Assistance Plan




                                               B-8

INDICATOR      #10:   Percent of families with identified needs for whom the Head Start
                      program has attempted to meet these needs

SOURCE:        Children’s social services file review, social services component log and
               file review


 Out of families with identified needs,           1988-89     1991-92     Difference
 ‘percent for whom grantees:


 attempted to meet all or most needs               39.4        46.8          +7.4

 attempted to meet some needs                      27.8        22.7           -5.1

 attempted to meet few or none of the              24.0        26.9          +2.9
 needs

 deemed no action necessary to meet needs           8.8          3.7          -5.1



:,.
.
!%)ut of families with identified needs,          1988-89     1991-92     Different
~percent for whom grantees:
:::
 ....
.:.,,.
:.:.:

 furnished information about available             52.7        60.6          +7.9
 community services

 gave referrals to community agencies              43.6        46.1          +2.5

 provided direct services                          20.8         19.2          -1.6

 followed-up                                       25.2        30.7          +5.5




                                            B-9
INDICATOR          #11:   Percent of parents volunteering at least 50 hours per year

SOURCE:           Grantee interviews, volunteer and in-kind file review

       * Although we reviewed parent volunteer files, they were not organized to track
         individual parents ) volunteer participation. We asked program directo~ whether
         the percent of parents volun~een’ngat least 50 houns per year (or 6 houns per
         month) had increased, decreased, or s~ayed the same.


 :,.

“.Percent of grantees reporting:                                                    Percent
:..:
>:
,..,

   an increase in parent volunteering since 1988-89                                   42.6

   no change in parent volunteering since 1988-89                                     34.8

IIa decrease in parent volunteering since 1988-89                              I      22.6




INDICATOR          #12:   Percent of full enrollment

SOURCE:           Enrollment data, attendance    record sample review




                                                       1988-89       1991-92       Difference



IIPercent of full enrollment                            98.0
                                                                 I    99.1
                                                                         *
                                                                               I      +1.1
                                                                                                II
       �   The OIG report, “Head Start Expansion: Grantee Experiences” found that 13
           percent of grantees were unable to enroll all additional children planned under
           expansion. The funded enrollment jigures used to compute percent of full
           enrollment in the above table do not include children who could not be enrolled
           because of problems witit expansion.




                                                B-10
INDICATOR         #13: Average vacancy time

SOURCE:           Grantee inte~iews, attendance        data review


 ,,, ,
 Percent of grantees reporting that their              1988-89       1991-92
 average vacancy time is:


  one week or less                                      61.2          72.3      +11.1

  8 to 14 days                                           13.6         12.4        -1.2

  15 to 30 days                                          14.0         13.7        -0.3

  Don’t know                                             11.2          1.7        -9.5




INDICATOR           #14:   Grantee is not at fiscal or program high risk

SOURCE:           ACF regional office data


None of the grantees that we vkited were at f~cal or program high rzkk.




INDICATOR           #15:   Child-to-staff ratio (based on actual enrollment)

SOURCE:           Grantee-provided    staff tally, enrollment data


 ;;:,,,
 .,.,
   .,..
  f’ildren
 :,          per:                                      1988-89       1991-92   Difference
   ...,,.,
 .,.,
  ,..

  teacher, not including teaching assistants             19.5         18.8        -0.7

  teacher, including teaching assistants                  9.8          9.4        -0.4

  social service staff person                           91.2          94.5        +3.3

  health staff person                                  202.2         186.8       -15.4

  parent involvement staff person                       165.1        150.5       -14.6



                                                B-II
INDICATOR      #16:   Number of volunteer trainings and parent workshops

SOURCE:       Grantee interviews, volunteer, training, and in-kind file review


UNABLE     TO DETERMINE.          Grantee files were not conducive to analysis.




INDICATOR      #17: Average number of contacts with each parent

SOURCE:       Children’s social services file review, social semices component log and
              file review


UNABLE TO DETERMINE.             Grantees record parent contacts differently. Our
reviewen had limited success attempting to quantifi parent contacts.




INDICATOR      #18: Average daily attendance

SOURCE:       Attendance     data review


 ,:
 ‘Children
 ..        present divided by funded               1988-89       1991-92       Difference
 ~enrollment
                                                                           r



  Average daily attendance
                                             I      84.3
                                                             I    86.3
                                                                           I      +2.0




                                            B-12
        APPENDIX          C

ACF COMMENTS ON THE DIL%171’REPORT AND
        DETAILED OIG RESPONSE




                  c-l
    DEPARTMENT OF HEALTH & HUJMAN SERVICES



                                                                 ADMINISTRATION FOR CHILDREN AND FAMILIE!
                                                                 Officeof the Assistant Secreta~, Suite 600
                                                                 370 L’EnfantPromenade, S.w.
                                                                 Washington,  D.C. 20447
Apti   7, 1993                                                                 m                         .


TO:
                                           Inspector       General
FROM :
                 Acting    As~istant       Secretary       for
                    Children      and   Families                                M!rls am
                                                                                                     /
SUBJECT :        Office   of Inspector          General      Draft   Report,         “Evaluating
                 Head Start    E@ansion          Through      Performance          Indicatorstg
                 (OEI-09-91-O0762)

The Administration             for Children       and Families          (14CF) appreciates
the opportunity          to review        and conumrk       on the Office         of Inspector
Generalts       (OIG)    draft      Report.      While there         are clearly        sexvice
~allty      problems       in some programs,          ACF believes          that    the large
majority ‘of Head Sta~               p~~ams       are   ~roviclin~       th#r     qlled
children-     and famili&-win*              good quallty       servlce~       and ‘are striving
to be responsive           to tieir       needs,    to improve        program     management
and to meet Head Start’s                Performance       Standards.          The problem        is
not that      service      quality      is low in any general              sense    but,    rather,
that    it is uneven.           While Head Start          programs       at the high end of
the quality        spectrum       are excellent,        it is evident,           based on ACWS
own experience         managinq       the program,        that     some local       programs       do
not fully      comply with important              elements       of the Head Start
Performance        Standards.

ACF program       officials       are aware of the variability                in quality
among local       ?lead start       programs     and a Variety         of steps   have been
and are being         taken   to correct       deficiencies.          These include       the
strengthening         of ACFQS program         monitoring         capacity, modifying
Head Startts        training      and technical         assistance      delivery    system,
providing      additional       funding      to local      programs     for service
~ality       mprovement,        providln~      training        for Head Start     directors,
zmprovlng      management       informatlcm        systems       and promulgating      needed
regulations       and guidelines.

TO the     extent      that     the OIGCS study        helps     to identify        areas
requiring       further       attention      it is a useful         contribution         to our
own efforts         to upgrade        Head Start     service       quality.        However,       our
overall     reaction        to the draft        Report    is mixed.         On the one hand,
we believe        that    the     Report   correctly      points      to ~portztrlt        issues
related     to specific           program   components       and to local          Head Start
recordkeeping          and reporting        tha~ clearly         require      further
examination         and action.          The two most prominent             of these       program
    Page 2 - Bryan            B. Mitchell
                                                                   We also believe    that
    components        are
                       health    and social       services.             which broadly
    a full-scale     management     reviewthat of may
                                                    the bepro~={
                                                             associated     with the
    examines all of the factors
    unevenness     in service    quality      found among Head Start           progrms, is

    an appropriate      step  toward     addressing       the problem      and zs

    welcomed.

    On    the   other hand,         however,       we believe        that   the Report         overstates

    the magnitude          of the problems            identified        and that      it is

    misleading      --certainly          with respect          to ~unlzatlon            and to some

    extent      in other      areas      as well.         In ?dd+tlon,        despite      the Reportts

    cautionary        lan~a~e         regarding       the dlst+nctlon           between.

    recor-eepin?           deficits        and actual        service      quallty     deficits,        the

                                                               are discussed         and interpreted

    manner      in which the OIG study                data
     betray     at least       a partial        disposition        toward      concluding,tiat           what

    may be recor~eeping                 problems      are,      in fact,     servxce      dellverY,

     problems.        This gives         the Report         a more negatxve          and conclusive

     tone    than may be warranted                or intended.
                                                                                                         and
.
     Outlined      b~-low~M greater detail are ACF~s ~specif~c                            concerns
     co-ents       on thelRep~rtts
                           :                  findings        and reco~endatlons.
    OIG     Report Findinqs
                                                             leave

     1)      Children may not be fully immunized before they
              he Head Start Program

     The ACF believes            that   the data      and conclusions            presented,in        the
     OIG Report        relative       to the immunization             of Head Start
                                                                       ‘only   43.2
                                                                                            children
                                                                                       percent      of
     are misleading.             The Report      states       that
     children       were fully        immunized      as defined,by           Head Start
        idelines.t*          While 97 percent          of all      children      were fully
     ?% unized        for MKR and 90 percent               had received        the HIB
     immunization,           the Report     states       that     chil~en      fre~ently         did not
     receive       needed      DPT and polio       immunizations.
                                       “ Head Start guidelines four-

     To be considered ‘fully immunized,
     recommend 5 doses of DPT and 4 doses of polio vaccine for
     year-olds and 4 doses of DPT and 3 doses of pollo vacczne for
     three-year-olds.  However, the guidelines make allowances for  .
     children      who were not immunized      as infants    and ellmlnate     me
     fifth     DPT and fourth polio vaccine doses for children whose
     previous doses of these vaccines were given after                the clnldts
     fourti     birthday.      The Head Start    guidelines    also  provide   a
     schedule       which indicates    the timing    and spacing    of the
     vaccinations.
      To the extent            that   there   may be a shoticoming                in the ~unization
      of children,           it is    largely   related to children                 not recelvln9   tie
      last   in the      of doses for DPT and polio and not to a
                            series
      general disregard of immunization requlr-ents.   On the contra~~



                                                      c-3
                                                                                                                 .
    .
.
            .
        .




                Page 3 - Bryan             B.   Mitchell

                according to             the OIG%          findings,   98.4 percent            of   all     Head       Start
                children          were     assessed        for current    immunization
                                                                status (not 80
                percent as stated on page 9; see table on page B-2), 97 percent
                received the MM? immunization and 90 percent received the HIB
                immunization. These data strongly suggest that Head Start
                programs recognize the importance of immunization and argue for
                the exercise of caution before concluding that Head Start is
                grossly deficient in immunizing children.

                Part      of the problem           associated        with        the    OIG Reportts analysis may
                lie     in the differing             interpretations               of   what is required in the
                serial immunizations for DPT and polio. Head Start guidelines
                notwithstanding, some States, including the study States of
                Michigan and Washington for example, do not require that children
                receive a fifth dose of OPT vaccine andjor a fourth dose of polio
                vaccine, and Head Start programs and their health service
                providers          typically       do not       provide         children    with    these      final
                doses.

                Another      source= ?f confusion       is the reporting     specifications       of
                the Head ~tart’$&ogr&m          In~ormation    Report    (PIR); tie       annual
                survey     instrument    on which Head Start       programs     provide
                information        about their    operations.     As the OIG Report          itself
                notes, the PIR does not reference a fifth dose of DPT vaccine or
                a fourth       dose of polio   vaccine    as a requirement      for reporting
                four-year-olds       as having    completed   their     immunizations. Rather,
                for reporting purposes, Head Start programs are instructed to use
                4 doses of DPT and        3 doses    of polio   vaccine    as the   threshold for
                a child    having          satisfied          immunization          requirements,          irrespective
                of whether      the        child     is     three   or four         years    of age.

                Using       the    4 doses
                                  of DPT/3 doses of polio vaccine threshold
                specified in the PIR instructions, Head Start programs reported
                that 88 percent of their enrollees were fully immunized. Based
                on verbal communications with OIG study team staff, we were
                informed that using this service standard the OIGCS study data
                are very close to the PIR data: 88 percent immunized according
                to the PIR and 84 percent immunized according to the OIG study
                team@s data.

                BY using Head Startgs 5 DPT/4 polio vaccine dose guideline as the
                standard to be met by all four-year-olds in Head Start, the
                Report exacerbated the apparent      discreparwy       which the Study found
                between the data   rep~rtecl  by Head start      pro~arns    on the plR and
                the data collected    on site  by the OIG study        team.   Since
                approximately      63 percent    of the Head Start    children                              are four­
                year-olds,     the manner     in which they are dealt      with                           is critical          in
                any assessment      of humanizations     in Head Start.




                                                                          c-4
.




    Page   4   -   Bryan B. Mitchell
    ACF will need to examine the issue of what threshold should be
    used for reporting children’s immunization status on the PIR,
    recognizing        that    programs      in some States          may not meet the 5 DPT/4
    polio    vaccination        guideline       for four-year-olds          and also that       some
    four-year-olds          should     not receive       these     final  boosters.       It
    should     also    be noted      that    using    the more st~ingent         5 DPT/4 polio
    standard       for reporting        four-year-old         children    as fully      immunized
    on the PIR is not likely to alter immunization practices. The
    principal result is likely to be that more children                             are reported
    as Up-to-date         as opposed       to having       coxnpleted    immunizations.

    Finally, we wish to point out that, apart from the issue of what

    constitutes “fully immunized,‘1the Report gives the impression

    that large numbers of Head Start children are not up-to-date in

    their immunizations. It asserts  that ‘Approximately 69.4 percent
    of the children    who required   polio      immunizations                  during     the
    program  year   did not receive   all    they needed,                58.6      percent     of the
    children  who requhed      DPT immunizations       during             the      program     year
    did not receive     all they needed”      (page 9).

    Acc&~*ing ;&;th&’Head ,Startguideline”&~”=ch~ic@en{should

                                                            begin
    immunizations @u~ingzZnfancy and should ha~?recei”ved 4 doses of
    DPT and 3 doses          of polio    vaccine     by their      Isth   month and another
    dose of each vaccine            between    the ages of 4 and 6.             HoWeV=,oSO~e
    children,      especially       in low-income        communities,       do not receive
    immunizations        on time and must be immunized                according    to a
    revised     schedule      which    is also    specified     in the Head Start
    guidelines.        For example, a three-year-old entering Head Start
    without any prior immunizations receives his first shots in
    August . The child should receive DPT-1, polio-l, MMR and HIB.
    Two months later, in October, the child should receive DPT-2 and
    polio-2. Then, in December, the child should receive DPT-3. The
    child should not receive another booster until the period between
    June and December   of the following   year.   Thus,   the child    should
    not have more than 3 doses     of DPT and 2 doses    of polio   vaccine
    during  the Head Start   year.   Additional doses of vaccine during
    that time period would be of no benefit. The same schedule would
    apply to a four-year-old with no prior immunizations.

    NO data are presented either in the body of the OIG Report or in
    Appendix B concerning how OIG’S analysis took into account the
    child’s age of first vaccination, the child~s age and vaccination
    status upon entry into Head Start and the child~s length of stay
    in the program before concluding that children did not receive
    ‘all they needed “ by way of immunizations.
    For the reasons       cited     above,   we recommend    a full          and careful
    reanalysis   of the OIG study          data.    The reanalysis            should    present
    immunization    rates       for four-year-olds     using    the         immunization



                                                    c-5
8   .




        Page 5 - Bryan B. Mitchell

        thresholds in      both    the Head Start       guidelines   and the PIR.          In
        determining      whether     the children     are up-to-date      in their
        immunizations,       the   reanalysis     should    make appropriate       ad]ustrnents
        for children’s  ages at first immunization and other relevant
        factors. We also recommend that all of the data used in the
        analysis be presented in the Report along with such explanations
        of methodology as are necessary to understand how the data were
        compiled and analyzed. Absent this, we recommend that the
        finding that only  43.2 percent of Head Start children were fully
        immunized be dropped from the Report and that the immunization
        section be recast to reflect only what can be asserted with
        confidence.
        2)    ~                                                         ect       ormation in
              childrenls health records.

        The ACF has several suggestions related to this finding. First,
        the tables on page B-1, which provide some of the information
        used to illustrate this conclusion, should be modified~ The
        first table-is misleading in representing 18.4 percent of Head
        Start ~ildren as not having receive-da medical screen. The                                    -. ..
        information in the second table indicates that 10.1 percent      did
        not require      screening because they had been screened during the
        previous 12 months and an additional 0.6 percent did not require
        screening because they were under treatment. The data on these
        two categories of children should be removed from the second
        table and included in the first table so as to clearly show that
        only 7.7 percent of the children who required a medical screening
        did not receive it. The fact that       92.3 percent of all Head Start
        children    received   a medical screen and that only 7.7 percent did
        not should be highlighted on page 8 along with the other
        information presented.

        Second, it would be helpful if the Report provided additional
        information regarding how it was determined that only 53.8
        percent of Head Start children received growth, speech and
        immunization assessments (pages 8 and B-2). More information
        about this aspect of Head Start program performance might shed
        some light on why this figure is so much lower than, and in
        apparent conflict with, the data on assessments presented in the
        table on the top of page B-2. The data on page B-2 show that
        76.4 percent of children received height/weight assessments, 84*5
        percent received speech assessments and 98.4 received
        immunization assessments. We also suggest the need for
        clarification of the note at the bottom of page B-2 which seems
        at variance with the notation on page 8 regarding the threshold
        for determining whether a child had received ‘all appropriate
        tests.w




                                                     C-6
                                                                                                  .
Page      6   -   Bryan   B. Mitchell

3)        Grantees freuuentlv do not identifv or address
          fami lies’ social service needs.

The OIG Report indicates that 26.3 percent of families
participating in Head Start did not receive a family needs
assessment (FNA). It also states that, in some cases, Head Start
programs only partially completed FNAs, used “scaled do~” fo~s
to accelerate the needs assessment process or substituted intake
or application forms for a formal FNA. TWO points related to
these observations are unclear: First what criteria did the OIG
study team use to determine what constitutes an acceptable FNA?
Might not at least  some Head Start programs believe that the
‘family profile 1’forms completed for 89.5 percent of enrolled
families (see table on page B-8) contain sufficient information
to serve as family needs assessments? Second, how detrimental is
the use of locally developed forms and protocols which may be
less comprehensive  and elaborate than the model FNA developed by
the Federal    government?                It  should   be noted    that   the            use of the
model FNA is not required.                   Head Start   guidance      merely            indicates
that  programs    should   use            ‘“some form of FNA.19
                                                              7




W*&     re~~ct        to lieaci Start          programs’      efforts      to-actually           address
family      needs,       we suggest        that     the tables       on the top of page B-g
and on page 13 be modified                     and made consistent.               The table          on
page B-9 indicates               that    the percent         of families         with    identified
needs     for whoxa Head Start               prograxns     “attempted        to meet few or none
of the needs’t           was 26.9 percent.             No definition           is given        for what
is meant        by “few . . .of the needs”              or how these         families        were
distinguished            from the preceding             category      on the table,            f-ilies
on whose behalf             programs       attempted       to meet ‘some of the need~en
Unless      satisfactorily            distinguishable,            we suggest        that     farnilles
in the few-needs-met                category        be iriclucied     with the families                in
the some-needs-xnet              category        and that      the 26.9 percent            figure        be
adjusted        downward       to reflect         only those       families       who apparently
received        no assistance.

A corresponding modification should be made to the table on page
13   Please note in this connection that, as it stands, the table
      �


on page 13 is inconsistent with the table on page B-g in that it
acknowledges no Head Start program efforts whatsoever on behalf
of the 26.9 percent of families with identified needs.

4)        Grantees ~ files and records freuuentlv are incomplete.
          inconsistent and difficult to review.

This finding provides an important contextual consideration
within which the entire OIG Report Should   be viewed and has Z1
material bearing on each of the other three major findings. As
noted in the Report itself, and as apparent   in our own review  of
it, the OIG study team found it difficult in many instances to
determine whether a problem identified during the review was an

                                                                                        .
  .                                                    c-7
�




    Page     7     -    Bryan B. Mitchell

    actual service delivery weakness or the result of inadequate
    record keeping. Since the issue of records and record keeping
    permeates so much of the Report, we suggest that this finding be
    presented first.

    As indicated            earlier        in this     memorandum,          we also        suggest
    modifying         some of the language                used to present              findings       and
    conclusions           which       is inconsistent          with the Report’s                own
    cautionary          note     regarding         the study       teamts       inability         ‘to
    determine         if the program             and performance data
    weaknesses. ..reflect serious                      deficiencies           in the quality            of
    senices         provided         by Head Start’g          (pages      ii and 7).           A few
    examples        of language           which appear         to clis~egarci          this     caveat      are:
    ‘Grantees         are not completing               the minimum health                requirements          to
    the extent          reported...”            (page 7) ; “apparently...                percent      received
    no follow-up            treatment” (page 8); “Approximately                            140@0--or           26=3
    percent     --families           participating          in Head start            nationally         did not
    receive       an FNA’~ (page 10); and “made no attempt                               to meet family
    needs”      (page       13).        In these and other             instances,          it would be more
    appropriate           to use language             such as ‘the          study      team could         find no
    documentation            that...tt       or “local        Head Start          program      records       were
    inadequate/incomplete                   with respect         to...,”        etc.

    Finally, we also recommend that the Report include information on
    the results of the OIG study tearn~s follow-up interviews with
    selected programs which are mentioned on page 5. The purpose of
    these interviews was to ascertain the reasons for the apparent
    discrepancies between the data collected by the study teams on
    site    and the PIR data.       Since  the reliability       of the PIR data     is
    presented     as an issue     in the Report,       it would be helpful    to knOW
    the results     of this   follow-up,     including     the perceptions    of the
    programs    whose operations       were the subject       of the OIG review.
    Our own informal discussions about immunizations with 18 of the
    programs reviewed by the OIG study team indicate that these Head
    Start programs do not consider their records to be inadequate and
    that they believe that the PIR information which they submit at
    the end of the program year is accurate. However, several
    programs indicated that, although services may have been
    provided, an individual childts health record might be incomplete
    because of several factors:  the lag-time associated with several
    centers            reporting     to central     recardkeeping           locations;        the
    difficulty              of obtaining     actual    copies     of      medical     records     from
    physicians not reimbursed by the Head Start program itself; and
    the fact that all of a child~s records may not be in the master
    file     for        each   child    prior    to   the    actual      Close-out        of   tie    program
    year.




                                                            C-8
�


    �




                Page 8 - Bryan B. Mitchell

                OIG Report Recommendations

                1)     The Secretaq of HHS should convene a task force to
                       conduct a tormal and t borough review of the management
                       of   t he   Head   Start   program.

                The ACF believes that a management review of Head Start would be
                useful in helping to identify and address issues bearing upon

                pro~am quality. In a March 31, 1993 letter to Senator Kennedy,

                Chazrman of the Senate Labor and Human Resources Commttee, the

                Secretary indicated that she has asked for a ‘top-to-bottom looktt

                at the program. The review would be undertaken with the help of

                an expert study panel and the results used to design an improved

                Head Start program.

                2)	    The ACF should create, distribute and mandate specific
                        recordkeeplnq and children Bs tzles maintenance
        r	   *,”+
              1.8     “ lnstructzons for grantees. .
                                                   El-
                ‘ The ACF believes this recommendation        has merit.       The agency has
                  already   begun work on the implementation          of new recordkeepxng    and
                  reportzng    protocols for Head Start,     entitled     the Head Start
                Family Information System (HSFIS). The new system WZU xnclude
                tiformation on the services provided to individual Head Start

                children as well as on family needs and how they are being
                addressed.        As envisioned,    HSFIS would meet the recordkeeping
                needs     of local   Head Start    programs and also  facilitate     their
                reporting      of information    to ACYF.   A request   for clearance      to
                field     test  HSFIS in 22 Head Start programs is currently at the
                Office of Management and Budget for approval.

                3)	    The ACF should strengthen its monitoring of grantees to
                       better ~dentlfy and address Problem areas.
                The ACF agrees with the suggestion under this recommendation that
                the PIR data should be checked for validity on a sample ~asiq.
                However, other aspects of this recommendat~on, as ~pl~fled m
                the text on page 15 which follows it, are problematic.
                First, although we a~ee that we need to continue to stren~en
                our monitoring capacity, it is not clear what the Report means
                when it states that ACF should consider ‘restructuring and
                condensing its on-site pro~am reviews.” The OIG% study did not
                e%amzne how monitoring viszts are conducted, and the Report
                itself presents no findings or analyses concerning on-site
                monitoring.




                                                             c-9
    .                                          .


I




        Page 9 - Bryan B. Mitchell

        Second, while we agree with the intent of the suggestion that ACF

        should devote more time and resources to monitoring and providing

        technical assistance to the most problematic ~antees~ tiere ~e

        severe      constraints        related     to   its- implementat~on.”        The Head Start
        legislation         requires       that   ACF   cenduct     an on-site    monitoring      visit
        to one-third          of the Head Start           grantees    each year     (approximately
        460 programs),          that     all newly      established      programs    be visited
        early     in their       second      year of    operation     and that    follow-up     visits
        to Head Start a~encies be conducted when appropriate. Currently

        available staffng and travel resources are barely adequate to

        meet these statutory requirements, particularly the follow-up

        visit requirement. In so far as existing resources permit

        follow-up visits, they are already being targeted on programs

        identified as havinq significant Problems. Any expansion of on-

        site    monitoring       to   ~ddi~ional     pro~ams        would    requfie    more
        resources      than    are    currently     available.
        We suggest that this recommendation focus on validating the PIR
        data and that the topic of ACPS monitoring processes and
        priorities be examined as part of the larger management review of
        Head Start envisioned by the Report”s first recommendation.
        4)	    The ACF should develop a modified FNA form that should
               be re qulred ot all Head tart grantees.
        We believe that the HSFIS will satisfy the intent of this

        recommendation.

        If you have any questions about our comments or if we can be of
        further assistance, please do not hesitate to call.




                                                        c-lo
                       OIG RESPONSE TO ACF’S COMMENT’S


ACF CO MMENT (Page 1): “While there are clearly service quality problems in some
programs, ACF believes that the laqp majority of Head Start programs are providing their
enrolled children and families with good quality services and are stn”vingto be responsive
to their needs., to improve program management and to meet Head Start’s Performance
Standards. The problem h not that service quality is low in any general sense but, rathe~
that it is uneven. While Head Start programs at the high end of the quality spectrum are
excellent, it k evident, based on A CFk own expen”encemanaging the program, that some
local programs do not fully comply wi~h important elemenls of the Head Start
Performance Standards. ”

“ACF program oficials are aware of the variability in quality among local Head Start
programs and a variety of steps have been and are being ~aken [o corect deficiencies.
These include the strengthening of ACFk program monitoring capacity, modi~ing Head
Start’s training and technical assistance deiivery system, providing additional funding to
local programs for service quality improvement, providing training for Head Start directo~,
improving management information ~stems and promulgating needed regulations and
guidelines. ”

OIG RESPONSE: Based on our experiences while conducting on-site visits, we
generally agree with ACF’S assessment that some grantees provide better and more
complete services than others. Given the variation in quality, we believe that certain
grantees require greater technical assistance and oversight than others. This was the
reason that we recommended that ACF concentrate its resources on the most needy
grantees, rather than on the ones that provide high quality services already (who could
receive a condensed on-site review). Although we did not conduct a tull study of
ACF’S on-site review process and we recognize that there may be legislative
constraints, we believe that ACF should consider this optiom

ACF COMMENT (Page 2): ‘tOn tileo{iwr hand, however, we believe iha~ the Repoti
overstates the magnitude of lhe problems identified and dlat it is misleading--certainly
with respect to immunization and to some extent in other areas as well. In addition,
despite the Report’s cautionary language regarding [he dhtinction between record keeping
deficits and actual service quality deficits, the manner in which the OIG study data are
discussed and interpreted betray at least a partial deposition ~oward concluding that what
may be record keeping problems are, in fact, service delivery problems. Thk gives the
Report a more negative and conchisive tone than may be warranted or intended.”

OIG RESPONSE: While the report includes many references to the poor file
maintenance, we cannot reject the probability that many grantees are not providing
the services required by the performance standards. The immunization problem, in
particular, should not be dismissed as merely a record keeping problem, since we
found conflicting ACF immunization @delines and learned that many grantees
disregard ACF/CDC immunization guidance, anyway.


                                           C-11
Given the inconsistency and poor condition of tiles maintained by many grantees, it is
impossible for any reviewer, including ACF staff, to ascertain whether grantees are
adequately providing services to children and families. The OIG reviewers conducted
extensive file reviews of all available information, including logs that were maintained
by the grantees. They also gave grantees the benefit of the doubt, whenever possible.

 ACF COMMENT (Page 2): “The ACF believes that the data and conclusions presented
in the OIG Report relative to the immunization of Head Start cilildren are mideading.
 17te Report states that “only 43.2 percent of c}lildren were fully immunized as defined by
Head Start guidelines.” W}lile 97 percent of all children were fully immunized for MJ4R
 and 90 percent had received the HIB immunization, the Report sta[es tha~ children
frequently did not receive needed DPT and polio immunizations.”

 “To be considered ~uh’yimmunized,’ Head Start guidelines recommend 5 doses of DPT
 and 4 doses of polio vaccine for four-year-olds and 4 doses of DPT and 3 doses of polio
 vaccine for three-year-olds. However, t}le guidelines make allowances for children who
 were not immunized as infants and eliminate the fif(h DPT and fourth polio vaccine
 doses for children whose previous doses of these vaccines were given after the childh
fourth birthday. Tile Head Start guidelines also provide a schedule which indicates the
 h“mingand spacing of the vaccinations. ”

OIG RESPONSE:        Our analysis took all of these factors into consideration.

ACF COMMENT (Page 2): “To the extent that [here may be a shortcoming in the
immunization of children, it is la~ely related to children not receiving the last in the sen”es
of doses for DPT and polio and not [o a general disregard of immunization requirements. ”

OIG RESPONSE: We agree that most children who are not fully immunized require
only DPT andior polio immunizations. We tound, however, that children sometimes
required more than simply the last in the series of immunizations. We have added
additional narrative and tables in the report to clarify this and provide    additional
information for ACF.

ACF COMMENT (Page 3): “On t}le contrary, according to the OIG’S findings,
98.4 percent of all Head Start children were assessed for current immunization status
(not 80 percent as stated on page 9; see table on page B-2)...”

OIG ItESPONSE: The ACF did not interpret the tables correctly. The narrative on
page 9 of the draft report referred to the percentage of all children who received
immunization assessments. Therefore, children who did not receive medical screens
were included in this computation. The table on page B-2 refers to the percentage of
the children who received medical screens and received an immunization assessment
as part of the screen. This excluded children who did not receive medical screens.




                                            C-12
ACF COMMENT (Page 3): “These data strongly suggest that Head Start programs
recognize the importance of immunization and a~ue for lhe exercise of caution before
concluding that Head S~art is grossly deficient in immunizing children. ”

OIG RESPONSE: In no section of the report did we conclude or imply that Head
Start is grossly deficient in immunizing children. At the same time, the data do not
lead us to conclude that all Head Start grantees are vigilant in ensuring that children
obtain all immunizations as required by Head Start’s published guidance. We have
added additional narrative and tables to the report to clearly document the extent to
which children have not received all required immunizations.

ACF COMMENT (Page 3): “Part of tile problem associated wi[h the OIG Report k
analysis may lie in lhe differing interpretations of whu~ is required in ~he serial
immunizations for DPT and polio. Head S[art guidelines notwithstanding some States,
including ~he study Sta[es of Michigan and Washington for example, do not require that
children receive a fifth dose of DPT vaccine and/or a fourtil dose of polio vaccine, and
Head Start programs and their heal~h service providers typically do not provide children
wi~h these final doses. ”

OIG RESPONSE: We agree that grantees use different standards to determine how
many DPT and polio immunizations are required. However, ACF’S reference to
Michigan and Washington using lower standards is somewhat inappropriate. In fact,
almost half of the Michigan and Washington grantees were above the mean in terms
of children fully immunized according to Head Start’s published guidance. In addition,
senior-level ACF staff commented during meetings that the presence of less-stringent
State standards would not be an appropriate rationale for grantees to obtain fewer
immunizations than those published in ACF’S guidance. The ACF should clarify what
is expected of grantees and assess compliance with the performance standards based
on clear and consistent guidelines.

ACF COMMENT (Page 3): “Ano[hcr source of con.h.sion is [he reporting specifications
of the Head Start Program Information Report (PIR), the annual survey instrument on
which Head Start programs provide information about (}~eiroperations. As [he OIG
Repofl itself notes, the PIR does ]lot refere~lce u Jfth dose of DPT vaccine or a fourth
dose of polio vaccine as a requirement for reporting four-year-okis as having completed
their immunizations. Rather, for reporting purposes, Head Start programs are instructed to
use 4 doses of DPT and 3 doses of polio vaccine as dle threshold for a child having
satisjied immunization requirements, irrespective of whether the child h three or four yearn
of age.”

“Using the 4 doses of DPT/3 doses of polio vaccine threshold specified in the PIR
inshuctions, Head Start programs reported (hat 88 percent of their enrollees were fully
immunized. Based on verbal communicatio]ls widl OIG study (earn staff, we were
informed that using this service s[andard (}w OIG’s study data are very close to dle PIR
data: 88 percent immunized according [o the PIR and 84 percent immunized according
to the OIG study team h da~a.”


                                           C-13
OIG RESPONSE: We agree with ACF’S assessment. This also indicates that
grantees’ immunization records are fairly accurate. From this, we can conclude that
grantees are, to a large extent, disregarding the ACF’S immunization guidance, and our
statement that 43.5 percent are fully immunized m measured by ACF’S guidance is
accurate.

ACF COMMENT (Page 3): “By using Head Start’s 5 DPT/4 polio vaccine dose
guideline as the standard to be met by all four-year-olds in Head Start, the Report
exacerbated the apparent dhcrepancy which the study found between the data reported by
Head Start programs on the PIR and the data collected on site by the OIG study team.
Since approximately 63 percent of the Head Start children are four-year-olds, the manner
in which they are dealt with is cn”[icalin any assessment of immunizations in Head Start. ”

OIG RESPONSE: We agree that the percent of children fully immunized as
tabulated by ACF and OIG are not comparable. This discrepancy was caused by
conflicting ACF criteria for determining full immunization. While its guidance
suggests that 5 DPT and 4 polio are necessary, ACF’S published data--the 88 percent
stated in ACF’S Statistical Fact Sheet--uses the less stringent PIR criteria. In addition,
ACF does not validate PIR data. Our random sample of children is a clear, accurate
measure of the extent of immunizations that Head Start grantees provide.

 ACF COMMENT (page 4): “ACF will need lo examine [he issue of what threshold
should be used for reporting c}iildrcnk immunization status on the PIR, recognizing that
programs in some States may no[ meet the S DPT/# polio vaccination guideline for four­
year-olds and ako that some four-year-olds should not receive these Jinal boostem It
should ako be noted that using the more s[ringenl 5 DPT14 polio standard for repofling
four-year-old children as jidly immunized on [he PIR is not likely to alter immunization
practices. The principal result is likely to be that more children are reported as up-to-date
 as opposed to having completed immunizations.”

OIG RESPONSE: We agree that ACF should examine its criteria for reporting full
immunization on the PIR. This is far less important, however, than clarifying its
guidance to grantees on how many immunizations each child should receive. If ACF
believes that grantees should have the option of ignoring the guidelines created by the
Centers for Disease Control and distributed by ACF in favor of State or other
standards, then it should issue formal guidance to grantees that states this policy.

ACF ~wNT            (page 4): “Finah’y,we wikh lo poinl OLUlhat, apart from the ksue of
what constitutes ‘@lly immunized, ) the Repor~ gives !Ile impression t}lat la~e nurnben of
Head Start children are not up-to-dale in llleir immunizations. 11 asserts that
 ‘Approximately 69.4 percent of the chi[dren who required polio immunizations during the
program year did not receive all ihey needed, 58.6 percent of the children who required
DPT immunizations during [he progr~imyear did not receive all [hey needed’ (page 9).”

“According 10 the Head Star{ guiddines, chi[dren shou!d begin immunizations during
infancy and should have received 4 doses of DPT and 3 doses of polio vaccine by lheir


                                            C-14
18th month and another dose of each vaccine between the ages of 4 and 6. Howeve4
some children, especially in low-income communities, do not receive immunizations on
time and must be immunized according [o a revised schedule which is also specified in
the Head Start guidelines. For example, a three-yeur-old en~ering Head Start wit}~outany
ptior immunizations receives his first sho!s in August. Tile c}lild should receive DPT-1,
polio-l, MMR and HIB. Two months late~ in Oc[obe~ the child should receive DPT-2
and polio-2. T/len, in Decembe~ the c}lild should receive DPT-3. T}le child should not
receive anot}ler booster until the period between June and December of the following year.
Z4us, the child should not have more than 3 doses of DPT and 2 doses of polio vaccine
during the Head Start year. Additional doses of vaccine during that time period would be
of no benefit. Tile same schedule would apply to a four-year-old with no pn”or
immunizah’ons. ”

OIG RESPONSE: As we commented during meetings with ACF, we were unable to
determine whether underimmunized children were indeed up-to-date in their
immunizations. The up-to-date measure would represent a very small percentage of
Head Start children who were severely underimmunized when entering Head Start
and could not receive all required immunizations during the school year. Clearly, very
few children come into Head Start as underimmunized as the one used by ACF as an
example. In fact, OIG reviewers were unable to recall a single instance in which a
child had no immunizations when entering Head Start. In addition, ACF data indicate
that only 8 percent of all Head Start children are “up-to-date” rather than fully
immunized or not fully immunized. Even assuming that 8 percent of our sample was
up-to-date (rather than not fully immunized), approximately half of all Head Start
children still are not fully immunized or up-to-date as defined by Head Start’s
published guidance.

We have revised the report to exclude references to children “receiving all
immunizations they need.” The final report focuses on whether children who are not
fully immunized received ~ of their needed immunizations during the school year.
We believe that this gives grantees the benefit of the doubt, given that it is possible for
a child to receive as many as 3 DPTs and 2 polios during the school year.

ACF COMMENT (Page 4): “No data am presented either in the body of the OIG
Report or in appendix B concerning how OIG b analysis took into account lhe child’s age
of jkst vaccination, the cilildh age and vaccination ~[utus upon entry into Head Start and
the childh length of stay in the program before concluding tha~ children did not receive
‘all they needed’ by way of immuniza~ions.”

OIG RESPONSE: We have revised the final report to include more information
about how we assessed immunizations. We ascertained whether each child received
his first DPT and polio immunizations by the time she was 4-months-old. In addition,
we used this and the child’s age to determine how many immunizations were
necessary. All children were in the program for at least 120 days.




                                           C-15
It should be noted that only 39 percent of children who required DPT immunizations
received at least one and only 34 percent of children who required polio
immunizations received at least one during the school year. The final report
incorporates this information.

 AC.F COMMENT (Pages 4-5): “For[he reasons cited above, we recommend a full and
careful reanalysti of the OIG study data. The reanalysis s}lould present immunization
rates for four-year-olds wing the immunization thresholds in both the Head Start
guidelines and the PIR. In determining whelher the children are up-to-date in their
immunizati”om, the reanalysh s}lould make appropria~e adjustments for children b ages at
fint immunization and other relevant factors. We also recommend that ali of the data
 used in the analysis be presented in ~}leReport along with such explanations of
 methodology as are necessary lo understand how the data were compiled and analyzed.
Absent t}u$ we recommend that the finding [hat onb 4.?.2percent of Head Start c}lildren
 were fully immunized be dropped from t}w Report and lhat the immunization section be
 recast to rejlect only what can be asserted wi(h confide rice.”

OIG RESPONSE: The immunization finding, as written, presents clear, accurate
information about the extent of immunization among Head Start children. We have
revised the report to address ACF’S concerns, but our main concerns remain:

1.     43.5 percent of children are fully immunized as defined by Head Start
       guidelines (the draft report figure was 43.2 percent). These guidelines are the
       same as those published by CDC and many other organizations. Using the PIR
       reporting guidelines, 84.0 percent are fully immunized. We are unaware,
       however, of any policy that states that grantees should use PIR reporting as the
       standard requirement for immunizations.

2.     Grantees do not have clear instructions about how many immunization they
       should obtain for children. The PIR and Head Start published guidance are in
       conflict.

3.     Many children participating in Head Start are missing key immunizations, and
       some need several immunizations to be fully immunized.

4.     Many children did not receive immunizations during the program year, although
       they needed them, according to ACF/CDC guidelines. Less than 40 percent of
       children who required DPT and/or polio immunizations received ~ during the
       1991-92 school year.

ACF COMMENT (Page 5): “T/le A CF’S PIR da[a do not accurately reflect information
in children k health records. Tile A (3F has several suggestions related to this finding.
Fimt, the tables on page B-1, wilic}l provide some of the information used to illustrate thk
conclusion, should be modi~ed. Tile Jirst table is mtileading in representing 18.4 percent
of Head Start c}lildren as not ho ving received a medical screen. The information in the
second table indicates that 10.1 percent did not require screening because they had been


                                            C-16
screened during the previous 12 months and an addi~ional 0.6 percent did not require
screening because they were under treatment. Tlw data on t}lese two categories of
children should be removed from the second table and included in the first table so as to
clear~ show t}lat only 7.7 percent o! the children who required a medical screening did
not receive it. Tlw fact that 92.3 percent of ull Head Start c}lildren received a medical
screen and that only 7.7 percent did nol should be highligh~ed on page 8 along with the
other information presented. ”

OIG RESPONSE: We have modified the table on page B-1 to indicate that
18.4 percent of Head Start children did not receive a medical screen during the
current Vear. While we understand that ACF does not require grantees to obtain
screens for second year participants, we found no documentation or guidance that
would allow grantees to do this. The performance standard guidance states that
“screening tests should be carried out for all the Head Start children” (page 17). In
this regard, we believe the distinction in the table on Page B-1 is appropriate. We
found that some model grantees obtained health screens for all children, regardless of
whether they had one the previous year.

A broader concern that ACF does not address is the lack of complete health screens.
Only about half of the children in Head Start received all three required annual
assessments during their screens (growth, speech, and immunization--we gave grantees
the benefit of the doubt for the special needs assessment). This does not include the
biennial assessments (vision testing, hearing testing, and hemoglobin or hematocrit
determination).   If we used “complete health screens” as the measurement for whether
children received a health screen, grantee performance would be much lower.

ACF COMMENT (Page 5): “Secotul, i~ would be hclpfid if the Report provided
additional information regarding how it was determined tilat only S3.8 percent of Head
Start children received growth, speech and immunization assessments (pages 8 and B-2).
More information about this aspect of Head Start program performance might shed some
light on why d~ti figure h so much lower ~han, and in apparent con.ict with, the data on
assessments presented in ~he table on (he [op or page B-2. Tile data on page B-2 show
that 76.4 percent of children received height/weig}lt assessmen~s, 84.S percent received
speech assessments and 98.4 received immunization assessments. We ako suggest the
need for clarification of [he note at the bottom oJ’page B-2 which seems at van”ance with
the notation on page 8 regarding {he ihreshold for determining whether a child had
received ‘all appropriate tests. ‘“

OIG RESPONSE: We clarified the wording of the tables in the final report. The
53.8 percent refers to the percent of ~ Head Start children who received a full health
screen. This includes children who did not receive any screen. The table on page
B-2 refers to the assessments received by children who received a health screen. We
also have revised the report to ensure that the footnotes--which describe the criteria
for determining whether a child received a “complete” health screen--are consistent.




                                           C-17
AC!F COMMENT (Page 6): Grantees frequently do not z’dentifi or address families’
social service needs. Tile (2IG Report indicates tilat 26.3 percent of families participating
in Head Start did not receive a family needs assessment (FNA). It also states that, in
some cases, Head Start programs only partially completed FNAs, used healed down)
forms to accelerate the needs assessment process or substituted intake or application forms
for a formal FNA. Two points related [o [hese observations are unclear: Fint what
criteria did the OIG study team use to determine wha[ constitutes an acceptable FNA ?
Might not at least some Head Start programs believe ~ha~the ~amily profile’ forms
completed for 89.5 percent of enrolled families (see table on page B-8) contain su.cient
information to serve as family needs assessments?”

OIG RESPONSE: We used ACF’S performance indicator guidance to determine the
intent of the FNA process. The guidance states: “The FNA will identi~ the interests,
desires, goaks, needs and strengths of the family, and will help the Social Sewices staff
determine how Head Start can best work with the family to maximize and maintain its
strengths, while strengthening areas of need and/or concern.” ln addition, we
examined each component of ACF’S Model FNA, which is described on page 12 of
the report. While we did not assess grantees’ forms against the model FNA, we
looked for an attempt to identi~ needs and goals at a minimum.

The family profiles we saw merely list family members and ages. We frequently found
that this information was part of the enrollment application, rather than part of a
social sexvices file. If a family profile contained an assessment of family needs, we
considered it to be an FNA (as well as a family profile). However, we did not deem a
listing of family members and ages as a suitable substitute for an assessment of the
reasons the family is in poverty and the services it requires.

We would consider it a severe program weakness if ACF found grantees in
compliance with social service requirements if they systematically failed to ascertain
parents needs for income supplements, education, job assistance, medical and mental
health services, and other assistance.

In addition, we found little evidence that grantees used and updated FNAs throughout
the year. This is critical because families may be hesitant to share their needs and
problems during intake. Overall, grantee efforts to identify needs are clearly a
problem.

 ACF COMMENT (Page 6): “..,Iww dc[rimental is [he use of locally developed fomns
 and protocols which may be less comprehensive and elaborate than the model FNA
 developed by the Federal government? It should be noted that the use of the model FNA
 b not required. Head Start guidance merely indicates that programs should use ‘some
form of FNA. ‘“

OIG RESPONSE: The report does not state that grantees’ development of forms is
detrimental. However, ACF should be aware that some grantees have developed
forms that clearly make no attempt to identi$ family needs or goals or develop action


                                            C-18
plans.             OIG reviewers often found that enrollment forms were used as
        Inaddition,

FNAs and contained few or none of the elements in the Model FNA. Some model
grantees have developed scaled-down forms that comprehensively identi& family needs
and help develop a framework to address these needs.

our fourth
         recommendation
                      addresses
                              theweaknesseswe foundinthesocial

                                                             services

component.Achieving    service
                  social             iscritical
                            objectives                the

                                             tomeeting

            goalof“empowerment
Adminstration’s               ratherthanentitlement.”       failure

                                                    Grantees’    to

identi~        family
      andaddress                 limits
                     needsseverely    theDepartment’sability

                                                          toachieve

thk.


 ACF COMMENT (Page 6): “Wi~h respect to Head Start programs’ efforts to actually
 address family needk, we suggest that the tables on the top of page B-9 and on page 13 be
modified and made consistent. The table on page B-9 indicates that the percent of
families with identified needs for whom Head S[art programs ‘at~empted [o meet few or
none of the needs’ was 26.9 percent. No deflni[ion is given for what is meant by ~ew...of
 the needs’ or how [Ilesefamilies were distinguislw.i from tile preceding category on the
 table, families on whose bella~prograrns cit[empted to meet ‘some of the needs. ) Unless
sat~actotily dtitinguishable} we sugges~that f~~milies in [he few-needs-met catego~ be
 included with the families in the some-needs-met categoy and that the 26.9 percent figure
 be adjusted downward to rejlect only [hose families who apparently received no
 assistance. ”

OIG RESPONSE: The data in the two tables are consistent.         We have modified the
category names to ensure that they are not misunderstood.

The OIG reviewers examined the extent to which grantees attempted to meet each
family’s needs. We excluded families who had no identified needs. If a family had
needs, we considered any documented effort by the grantee to address the need-­
including providing direct semices, making a referral, or even simply making a
telephone call--to be an attempt to meet the need.

The ACF’S comments indicate that it is unaware that grantees are not addressing
family needs to a large extent. We found clear evidence that many grantees do not or
are unable to address ~ family needs due to excessive social service staff caseloads,
general staff overload, lack of available community services, and other reasons. The
“few or none” category was one category. lf we found absolutely no attempt to meet
the family’s needs, we judged the effort to be an attempt to meet few or no needs. If
a family had many serious needs and the grantee made minimal efforts to address only
one or perhaps two--with no follow-up--we determined that they had met “few or
none.”

During training, we instructed reviewers that moderate attempts to meet a portion of
family needs should be judged as an attempt to meet “some” needs. The ACF should
note that we also combined “most” and “all” into one category, which makes this
category’s data somewhat higher than if we had split them.
ACI? COMMENT (Page 6): “A corresponding modi~cation should be made to the table
on page 13. Please note in ~hk connection that, as it stands, the table on page 13 h
inconsistent with the table on page B-9 in [hat i~ acknowledges no Head Start program
efforts whatsoever on behalf of t}w 26.9 percent of families with identified needs”

OIG RESPONSE: We have revised the table on page 13 so that “made no attempt to
meet family needs” is replaced by “attempted to meet few or no family needs.”

ACF COMMENT (Page 6): “Gran[ees’files and records frequently are incomplete
inconshtent and dificult to review. T}u3finding provides an important contextual
consideration wit}lin which the entire OIG Report s}tould be viewed and has a material
bearing on each of the other three major jindings. As noted in tile Report itse~ and as
apparent in our own review of it, the OIG study team found it diflcult in many instances
to determine whether a problem identified during the review was an actual service delivery
weakness or the result of inadequate record keeping. Since the issue of records and record
keeping permeates so muc}l of [he Report, wc suggest tilat ibis finding be presented ftnt. ”

OIG RESPONSE: We believe that the lack of documented evidence that children
received the required health and social services is the most important finding. The
ACF should examine the issue of inadequate record keeping under the context that
serious service delivery problems may exist. Each finding refers to record keeping
problems, if these indeed exist and influence the findings.

 ACF COMMENT (Page 7): “As indicated eorlier in this memorandum, we also suggest
 modifiing some of the language used to present findings and conclusions which is
 inconsistent with the Report’s own cautionav note regarding the study team k inability ‘to
determine if the program and performance do[u weaknesses... re~ect serious deficiencies in
 the quality of services provided by Head S[urt’ (pages ii and 7). A few examples of
 language which appear to disregard (his caveat [ire: ‘Grantees are not completing the
minimum health requirements 10 the ex[en( reported...’ (page 7); ‘apparently...percenl
received no follow-up treatment’ (page 8); ‘Approximately 140,000--or 26.3 percent-­
families participating in Head Sturt nationally did not receive an FNA’ (page IO); and
 ‘made no attempt to meet family needs’ (page 13). In these and other instances, it would
 be more appropriate to use language such as ‘the study team couid find no
documentation t}lat...’ or ‘local Head S[art program records were inadequate fincomplete
 with respect to...,’ etc. ”

OIG RESPONSE: As it is written, the report emphasizes that some grantees were
unable to provide documentation or data to prove that certain services had been
provided. In other cases, OIG reviewers concluded that selvice delivery problems
exist, and the problems are not solely related to record keeping problems.

we areunable to conclude that the absence of documentation          is related to file
incompleteness.   The absence of documentation      could also indicate that the services
were not provided.   The finding states that “it frequently was difficult to review and




                                            C-20
verify performance   indicator data.” Other grantees were exemplary in their internal
record
     keeping.

The OIG reviewers frequently found blank FNAs in children’s files. To a large extent,
we found underimmunized children who did not receive any immunizations during the
year, according to the charts in their files. We found health screen documentation
that clearly showed that certain assessments were not completed. The ACF should
understand that these service delivery weaknesses clearly exist. We are unable to
ascertain the extent of these weaknesses, however, because of some grantees’ poor
record keeping.

ACF COMMENT (Page 7): “Finally, we also recommend tilat the Report include
information on the results of the OIG study team’s follow-up interviews with selected
programs which are mentioned on page 5. T}le purpose of these interviews was to
ascertain the reasons for tile apparent discrepancies between the data collected by the
study teams on si[e and the PIR data. Since the reliabilip of the PIR data k presented as
an zksue in the Repor~, i~ would be helpJhl to know lhe results of this follow-up, including
the perceptions of ~heprograms whose opero[ions were the subject of the OIG review.
Our own informal discussions aboul immunizations with 18 of the programs reviewed by
the (21G study team indicate that [hew Head Start programs do not consider their records
to be inadequate and that they believe !ha[ [he PIR information which they submit at the
end of the program year h accurate. ”

OIG RESPONSE: We have incorporated information obtained during follow-up calls
in the final report. We also found that grantees believe that their files are adequate.
This clearly indicates the need for ACF to take leadership to provide file maintenance
guidelines.

We would expect grantees to assert that their PIR information is accurate. Without a
process to audit or otherwise validate PIR data, neither ACF nor OIG could verify its
accuracy.

ACF COMMENT (Page 7): “...severai programs indicated that, al~hough services may
have been provided, an individual child? heaith record might be incomplete because of
several factotx the lag-time associated with several centers reporting to cen[ral record
keeping locations; the dificulty of obtaining actual copies of medical records from
physicians not reimbursed by the Head Start program itself and the fact that all of a
child’s records may not be in the master file for each child prior to the actual close-out of
the program year. ”

OIG RESPONSE: We contacted the grantees well before our visit and provided them
with the names of the children whose files we wished to review. We clearly instructed
them to obtain all ap ProPriate files including health. social semices, enrollment, s~ecial
needs, education, and anv other files related to the child or familv. When we found a
pattern of missing information, we coded it as “missing” in our analysis and removed
these children from the statistical calculations. In addition, all grantees should have


                                            C-21
been able to provide complete 198&89 files. We found that grantees performed
similarly in 1988-89 compared to 1991-92, and the issues of concern--medical and
dental follow-up, immunizations, and social services among others--have not changed
since 1988-89.

RECOMMENDATION                           ofHHS should
                          #1: The Secretarv         convene             a task force to
conduct a formal and   thorough
                              review
                                   ofthemana~ementoftheHead start
                                                                Proaam.

ACF CO MMENT:         “The ACF believes that u management review of Head Start would
be useful in helping to identifi and address issues bearing upon program quality. In a
March 31, 1993 letter to Senator Kennedy, Chairman of t}le Senate Labor and Human
Resources Committee, the Secretary indicaled that she has asked for a “top-~o-bottom
look” at t}~eprogram. The review would be undertaken with the help of an expert study
panel and the results used to design an improved Head S~artprogram. ”

OIG RESPONSE:        No response is necessary.

RECOMMENDATION          #2: The ACF should create. distribute and mandate specific
record keeping and children’s files maintenance instructions for aantees.

 ACF COMMENT: “The A CF believes (Ilis recommendation has merit. The agency has
 already begun work on the implementation OJnew record keeping and reporting protoco~
for Head Start, entitled die Head Start Family Information System (HSFIS). The new
system will include information on the services provided to individual Head S~art children
 as well as on family needs and how t}ley are being addressed. As envisioned, HSFIS
 would meet the record keeping needs of local Head Start programs and also facilitate
 their reporting of information to A CYF. A request for clearance to field test HSFIS in
 22 Head Start programs k currently al [he OJJke of Management and Budget for
 approval. ”

OIG RESPONSE: We have not reviewed the HSFIS and do not know if it should be
a mandated record keeping system for all grantees.

RECOMMENDATION            #3: The ACF should strengthen its monitorin~ of grantees to
better identifv and address problem areas.

ACF COMMENT: “The ACF agrees with [he suggestion under this recommendation
that the PIR data should be checked f~x- validity on a sample basis. However, other
aspects of this recommendation, as amplified in [he {CX[on page 15 which follows it, are
problematic. ”

“First,although we agree that we need [o continue to strengthen our monitoring capacity,
it k not clear what the Report means when it states lhat A CF should consider
“restructuring and condensing its on-site program reviews.” T}le OIG h study did not
examine how rnonitoting visits are conducted, and the Report itself presents no findings or
analyses concerning on-site rnoni[oring.”


                                           c-22
 “Second, while we agree wi[h [he intent of the suggestion that ACF should devote more
 time and resources to monitoring and providing technical assistance to ~hemost
problematic grantees, there are severe constraints re!a~ed to its implementation. Tile Head
 Start legti[ation requires that ACF conduct an on-site monitoring visit to one-t}lird of the
Head Start grantees each year (approximately 460 programs), that all newly established
programs be vbited early in their second year of operation and that follow-up vkits to
Head Start agencies be conducted when appropriate. Cuvently available stajjing and
 travel resources are barely adequate to meet these statutory requirements, particularly the
follow-up visit requirement. In so far as exbting resources permit follow-up vikits, they are
 already being targeted on programs identified as having significant problems. Any
 expansion of on-sile moniton’ng to additional programs would require more resources than
 are currently available. ”

“We suggest that this recommendation focus on validating the PIR data and that the topic
of ACF? monitoring processes and priorities be examined as part of the laiger
management review of Head Start envisioned by the Report k first recommendation. ”

OIG RESPONSE: We do not believe that a review of the on-site review process is
necessary in order to suggest that ACF focus its resources to target and provide
technical assistance and oversight to the grantees that are having the most problems.
Clearly, some grantees require more assistance than others. We suggest that ACF
consider conducting a scaled-down on-site review to assess a grantee’s general
performance. Based on ACF’S findings, further review and technical assistance could
be provided, depending on the grantee’s need. This would also avoid wasting time
andresources
           conducting
                    a thorough
                             on-site
                                  review
                                       ofa grantee
                                                 withexcellent
performance
          andcleandocumentation.

We are not suggesting that ACF expand its on-site review program. Conducting a
scaled-down initial on-site review would allow ACF to continue to meet its
requirement to visit all new grantees and all existing grantees every 3 years. Initial
visits could be completed in a fraction of the time that ACF currently spends at each
grantee. This would allow more time for follow-up visits.

We agree with ACF that this issue should be addressed during the review of the
management of Head Start made in Recommendation #1.

RECOMMENDATION           #4: The ACF should develop a modified FNA form that
should be required of all Head Start ~rantees.

ACF COMMENT:          “We believe that HSFIS will satisfy the intent of this
recommendation. ”

OIG RESPONSE: As mentioned above, we have not reviewed the HSFIS. If ACF
mandates it and it includes a modified FNA, it would satisfj the intent of the
recommendation.



                                            C-23
           APPENDIX           D

ASPE AND AS~   CO-NTS   ON THE Dm   REPORT




                        D-1
                .. . .




                                                                       EB19@3



                    To:	            Bryan B. Hitchell
                                    PrincipalDeputyInspectorGeneral
                   PROM:	           Acting       Assistant        Secretq
                                    for Plannhg and Evaluation
                   s~JECT        :	 OIG Draft Report              “Evalua&g       Head Start  Expansion
                                   Through Perfo~ce                  lndicat~rs,”     OE1-09-91-00762       --
                                   CONCURRENCE

                  Thank you  for the opportunity   to review this draft       repoti.  AS my
                  Staff  and 1 have noted in previous    discussions,    this    repotiand
                  its companionreporton granteeexperiences            highlighta numberof
                  issues which will become central to pltig            for future
                  expansions        of     the       HeadStartProgr-. I commendthe work your
                  staff have done in                  prepaing both repo~.



                                                                                                                 s

                                                                                                                 Ow



                                                          Shl




    .           We look forward              to wox~g            closely      with    your   staff  on upc~g
                xepoxts as         well.         I    believe     the      prmess     of   dismssfig   a working
                draft  prior   to this clearance     document                        was beneficial    and, from
                our stand~int at least,       clears   the way for quickapproval                          of
                this  version.




        I r.

        ,.-

         -4
                           ..

        *

                         =
                         -
                         k­
.




        4




                                                                D-2

To:          Bryan B. Mitchell
         .
             Principal Deputy Inspetior1                Geneml
                                                            %      �

=x:          Elizabeth  M. ~ames
                                                                           ent   and Budget
             Acting Assistmt   Secre               ry   fOr Man
                                         Tp        uating    He        ~         ~ansion
Smm:         OIG Draft     Repoti:        n
             Through Perfo~nce                       n
 1-09-91-00762

                                           Indicators,

Thti       . for the oppo~ity . to~rauqh
          you                      review the draft re
                                          Perfo~nc  e       caters.
      aluatlna Head Start ~on
This repofi   as well as OIGtS two other cmapartlon repo~    on Head
Start expansion will be very valuable to the pro-        at this
point in its histoq. I have seve=l specific        comments
concemtig   this  repofi.

Page ii and Page        9 - Finding      “Chiltien    may not be fully immunized
before     they leave the Head Stati Progr~.t$ Children who,mter
Head Stan without any previous                immunizations      or are seriously
behind     with their    serial     immunizations      cannot besuggested
                                                                    ‘ftily
immunized’      by the time m~~~en
                                 they leave myHead     Start.
                                                   not be fully     ~unized~      or
replac=ent       sentence:
                                                    before    they leave the Eead
up-to-ate       with their      imniunizatio=,
sia*      Program.”
                                                                                               �




p.2-   We reco=end replacing the COL- ‘Additional Exp-lon
                                        The current cal­
Rxnding~ with ‘CO~/Quali~ Improv-ent.’c
shows the COLA and QualitY Improv-at along wi~ T=in~g ~~
Technical Assis~ce.    We believe that the Training and Technical
Assist=ce number should not be included because these **     are

not as directly related to imprmtig a grantee   quality as tie

COLA or Quality Improv-at   fun~ are. Also, please verifY final “

colm   numbers with the Head St-   Bureau.
      .

 Suggested    replac-at        column:
                                               n
                                                    COLA/Qualit’Y

                                                    Impravemmt                                     .


                          Expansion I
              $49,000,000
                                                                                           .
                          mansion        11         ~——
                                                                                           ..*.
                                                                                            .
                          Expansion      III       ‘$195,000,000
                          Expansion IV
             $108,535,000
                          Expansion      V          $189,828,000

 P.3-   Please revise the first sent=ce in the first paragraph  to

                                                        suggested

 reflect the change in the table on the previo= page.

                                                    identified on

 replacmmts    “The COLA/QualitY Improv=-t   funds,
 the cha~ on the preceding page~ were set-aside funds given to


                                               D-3
       ,+
-*:*


            Page 2 - Bryan B. Mitchell
                     .                                     .-            —



            If you have any questionsor con~
            please   con~­   Karen   S&afar   (690-6238)




                         .




                                                                     5   .
                                                           .         .
                                                                          ---
                                                                         .,
                                                                         .0

                                                           ..   ,.
                                                                                . .
                                                                                      1

                                                                              . :   .’,




                                              D-4
?


      Department of Health and Human Sefices

             OFFICE OF
        INSPECTOR GENERAL




     EVALUATING HEAD START EXPANSION
    THROUGH PERFORMANCE INDICATORS




                   MAY 1993
                         OFFICE OF IIWPE~OR                       GENERAL                                     .

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended,
is to protect the integrity of the Department of Health and Human Semites’ (HHS) programs as well
as the health and welfare of beneficiaries served by those programs. This statuto~ mission is carried
out through a nationwide network of audits, investigations, and inspections conducted by three OIG
operating components: the Office of Audit Semites, the Office of Investigations, and the Office of
Evaluation and Inspections. The OIG also informs the Secretaxy of HHS of program, and management
problems, and recommends courses to correct them.

                             OFFICE OF AUDIT SERVICES

The OIG’S Office of Audit Services (OAS) provides all auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine the
performance of HHS programs and/or its grantees and contractors in carrying out their respective
responsibilities and are intended to provide independent assessments of HHS programs and operations
in order to reduce waste, abuse, and mismanagement and to promote economy and efficiency
throughout the Department.

                             OFFICE OF INVESTIGATIONS
The OIG’S Officx of Investigations (01) conducts criminal, civil, and administrative investigations of
allegations of wrongdoing in HHS programs or to HHS beneficiaries and of unjust enrichment by
providers. The investigative efforts of 01 lead to criminal convictions, administrative sanctions, or civil
money penalties. The 01 also oversees State Medicaid fraud control units which investigate and
prosecute fraud and patient abuse in the Medicaid program.

                OFFICE OF EVALUATION AND INSPECI’IONS

The OIG’S Office of Evaluation and Inspections (OEI) conducts short-term management and program
evaluations (called inspections) that focus on issues of concern to the Department, the Congress, and
the public. The findings and recommendations contained in these inspection reports generate rapid,
accurate, and up-to-date information on the efficienq, vulnerability, and effectiveness of departmental
programs. This report was prepared in the San Francisco regional office under the direction of Kaye
D. Kidwell, Regional Inspector General, and Paul A. Gottlober, Deputy Regional Inspector General.
Project staff included:

SAN FRANCISCO                                      HEADQUARTERS

Jemifer Mallen, Co-Project Mder                    Wm. Mark Krushat, SC.D.,Mathematical Statistician
Brad Rollin, Co-Project Leader                     Alan Levine, Program Specialist
Elizabeth Bell
Kathy Dezotte                                      ATLANTA                           CHICAGO
Robert Gibbons
Deborah Harvey                                     Betty Apt                         Suzanne Johnson
Ellen Kotler                                       Ron Kalil
Donald Loeb                                        Chris Koehler
Brian Pattison
Alicia Simon                                       OFFICE OF INVESTIGATIONS

BOSTON                                             Baldur Krahl                      Jose Munoz-Caro

Timothy Corbett                                    AID lXl FAMILIES WITH DEPENDENT CHILDREN
Lori Rutter
                                                   Agustin Quiles-Ocasio
                                                   Irelys Ramirez-Ramos

For additional copies of this report, please contact the San Franciscoofficeat (415)556-6830.
